<html>
<title> - FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2003

                               __________

                           Serial No. 108-148

                               __________

       Printed for the use of the Committee on Government Reform







  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 _______


                        U.S. GOVERNMENT PRINTING OFFICE

94-006                            WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001















                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            J. Marc Wheat, Staff Director and Chief Counsel
         Elizabeth Meyer, Counsel and Professional Staff Member
                         Nicole Garrett, Clerk














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2003................................     1
Statement of:
    Harrison, Alice, executive director, Hope Have, Charlotte, 
      NC; Ginny Amendum, Thompson Children's Home, Charlotte, NC; 
      and Pat Marcum, Love INC of Mecklenburg County.............    37
    Marciano, Reverend Tony, executive director, Charlotte Rescue 
      Mission; Reverend Mable Hemphill, World Outreach Medical 
      Center, Gastonia, NC; and Shirley Stowe, Director of 
      Nursing and Home Management, House of Mercy, Belmont, NC...    10
Letters, statements, etc., submitted for the record by:
    Amendum, Jenny, Thompson Children's Home, Charlotte, NC, 
      prepared statement of......................................    45
    Harrison, Alice, executive director, Hope Have, Charlotte, 
      NC, prepared statement of..................................    40
    Hemphill, Reverend Mable, World Outreach Medical Center, 
      Gastonia, NC, prepared statement of........................    16
    Marciano, Reverend Tony, executive director, Charlotte Rescue 
      Mission, prepared statement of.............................    13
    Marcum, Pat, Love INC of Mecklenburg County, prepared 
      statement of...............................................    49
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Stowe, Shirley, Director of Nursing and Home Management, 
      House of Mercy, Belmont, NC, prepared statement of.........    20















    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     Charlotte, NC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
the Council Meeting Chambers, Charlotte-Mecklenburg Government 
Center, 600 East 4th Street, Charlotte, NC, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder and Myrick.
    Staff present: Marc Wheat and Elizabeth Meyer, counsels; 
and Nicole Garrett, clerk.
    Mr. Souder. The subcommittee will come to order.
    Good morning, and I thank you all for coming. I am honored 
to be joined by Congresswoman Sue Myrick, a friend and 
colleague who knows the value of the faith-based organizations 
and the role they play in the community. We were both elected 
in 1994 and have had a friendship from the start. She is one of 
the most effective leaders in Congress, and Charlotte is 
certainly proud of her and should be proud of her in Congress. 
A lot of times in our home base we wonder whether people 
outside know as much about us as the people back home, but 
truly Sue has made a real mark in Washington and it has been 
great to be her friend.
    At this time of year, tucked away among the constant stream 
of advertisements for the must-have Christmas present and the 
pressure to spend more and more money in order to bring the 
commercialized Christmas spirit to life, we are often reminded 
that not everyone lives as comfortable as we do. Newspapers and 
TV news programs run features on the area's neediest cases, 
hoping that those of us who are blessed with more can help 
those who need it the most.
    Each and every day, not just during the Christmas season, 
there are dedicated men and women who open their hearts and 
homes to the less fortunate. They do this not for the glory of 
public recognition, or for the money, but for the simple fact 
that their faith calls them--demands of them--action. They are 
committed to improving the lives of their neighbors, no matter 
the sacrifice to their own safety and comfort. Often their only 
reward, which is what they will tell us is their best reward, 
is the knowledge that they have restored hope to someone who 
had been suffering. Men and women who run the countless faith-
based social service organizations in neighborhoods all across 
the country are often the only people willing to tackle the 
tough problems because frequently the rest of us take an out-
of-sight, out-of-mind approach to the issues that make us 
uncomfortable.
    If in the United States, we had an unlimited amount of 
money, we would be able to fund every organization that is 
effectively providing social services. The hard reality is we 
do not have unlimited resources. We have to find a way to get 
the dollars we do have into the hands of the most effective 
agencies in the neighborhood. Frequently, that agency is a 
faith-based organization. Leaders of the many faith-based 
agencies I've had the privilege to visit tell me they are 
successful because they look beyond the immediate need. Their 
focus is helping the client regain hope, and changing a life. 
Fast fixes are not acceptable to these agencies. These men and 
women truly make a difference not only in the life of the 
client, but also the community as a whole. We need to determine 
how we can best encourage and support the work they do without 
asking them to compromise their beliefs.
    We have been having this discussion in Washington for quite 
some time. What I find the most frustrating is the tendency to 
lose sight of the reason we are having the discussion in the 
first place. We know that faith-based organizations are 
effectively transforming lives and communities. Where the 
discussion gets bogged down is in the legal questions. We need 
to refocus the discussion on what makes a faith-based 
organization successful. What is it that makes them effective? 
The fact that faith-based organizations are effective is the 
reason this discussion began in the first place. It is time to 
listen to the providers tell us how we can best assist them in 
their work. I doubt that government strings and bureaucratic 
red tape are something they are actively seeking. I believe 
that one of the best ways we as legislators can help is not by 
giving them more government strings to deal with, but by 
helping them to facilitate new relationships among the 
providers of social services and the foundations that provide 
financial and technical assistance to the faith-based and 
community organizations.
    Today we have a great opportunity to talk with providers of 
a range of faith-based services. We need to understand how the 
unique element of faith impacts the structure and success of 
these programs. It is also important that we understand how 
your programs transform lives by building self-confidence and 
self-esteem.
    I would like to explain a little bit what this subcommittee 
does, for those in attendance, for those who are testifying and 
why we are doing this series of hearings. First off, anybody 
who attends any hearing is always disillusioned by how few 
Members are there. The difference here is we are not going to 
be interrupted by bells like we are in Washington. We will not 
have as many Members in and out that you get, but often it is 
usually just one Member or two Members at most hearings anyway. 
That is the purpose of the focus of the subcommittee chairman. 
Often they call us iron pants because you sit through long 
hearings and you do that. I am on nine different subcommittees 
in Congress. But the main focus you have is in the one where 
you are a chairman, if you are a subcommittee chairman. This is 
an oversight committee. We have oversight over the different 
Federal agencies. We do not draft in most cases, and we do not 
pass the legislation, although we do have drug policy. We have 
oversight of the agencies. There is an authorizing that 
develops the law, there is the appropriators who fund the law, 
there are then oversight people to make sure that the executive 
branch does what Congress intended and spends the money that we 
have allocated correctly.
    This committee is unusual because we also have authorizing 
oversight because our primary responsibility is drug policy. So 
most of the members of my staff work full time on the drug 
issue. That is our primary assignment in Congress. We have held 
field hearings all over the United States, as well as in 
Washington. The Drug Czar's Office comes through here. We 
directly authorize and oversee the national ad campaigns that 
you see on marijuana and other initiatives. But because the 
drug policy overlaps a lot and because we deal with other 
things--and Speaker Hastert used to chair the subcommittee, we 
collected a lot of things in it. We also have oversight over 
the Department of Education; the Department of HHS, Health and 
Human Services; the Department of HUD, Housing and Urban 
Development; the Department of Commerce and the Department of 
Justice, as well as the National Park Service and faith-based 
organizations. Needless to say, you cannot focus on everything 
all of them are doing. You zero in on certain projects. We did 
a 2-year survey on border security that is now the base 
document that we are using in the Homeland Security Committee 
that I am part of.
    But one of the things we said is we were going to focus on 
faith-based organizations. So we have been doing a series of 
hearings around the country. So far, Nashville, Chicago, and 
San Antonio. In January, we will probably be in a couple of 
more. This time out west in Colorado and in California, maybe 
up in Seattle and then finish with some in the northeast to 
give the field hearings, in addition to the hearings in 
Washington where we have been debating the most controversial 
part, which is charitable choice, and whether the government 
should provide any direct funding. Those are generally held in 
Washington, but we have been trying to collect the information 
from the field from many diverse providers. We have had a wide 
range of witnesses. We are going to do a 2-year report that 
will hopefully be done by the end of this year if we can 
conclude our hearings by March, and work with the writing and 
getting it printed and so on and getting it through committee. 
That is kind of the background for those who are not familiar 
with our subcommittee and what we are doing in collecting it.
    The hearing itself will be printed in a report document 
that people will have access to. All told, before we started 
this process, the Indiana expression is, you could have counted 
the number of faith-based hearings on one hand and have enough 
fingers left to bowl. In other words, there have not been very 
many hearings on the faith-based thing itself. There have been 
hearings on the tax bill, but most of the documents that 
researchers will go in and find on faith-based will be this 
collection of hearings because there have not been other ones 
conducted by the U.S. Congress for the most part. Lots of 
opinions on the floor, lots of debates as we go through a bill 
and attach clauses on faith-based, but not much actual study 
and research.
    Today our witnesses represent just a fraction of the 
countless faith-based organizations that are meeting the needs 
of the local community in Charlotte. Charlotte has a rich 
tradition of faith-based organizations working together with 
their neighbors and with government, and I expect that they 
will provide valuable insights to their work and identify areas 
and methods by which government can best assist the community 
organizations of all types provide the best possible care for 
people in need. I very much look forward to this testimony and 
will also be seeking additional written testimony and 
information that we get from other groups in this area and in 
the region, because this is a regional hearing, not just for 
Charlotte.
    I also want to welcome the Olympic High School students who 
are it. It is a good experience to see firsthand. It is like 
watching sausage made, it does not always make you want to eat 
more sausage, but at least you get to know then how sausage is 
made. This is one of the first steps of the legislative 
process. It is also one way you can see why--if I can just make 
one additional comment--in government, you have to, in addition 
to being a general expert who can stand up in a town meeting 
and at least be plausible in front of the cameras on every 
subject and the second you make a mistake your opponent will 
jump all over you. At the same time, the fact is, you cannot be 
like a little 8-year-old soccer team where everybody runs for 
the same ball. You each have to have subcategories, and you 
become more in depth on some areas, and hopefully then win the 
support of your colleagues as you have that in-depth knowledge. 
That is really the process that we are going through today.
    [The prepared statement of Hon. Mark E. Souder follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Souder. I would now like to yield to my friend and 
colleague, Congresswoman Myrick for any opening remarks she 
might have.
    Ms. Myrick. Well, I just want to thank Chairman Souder for 
choosing Charlotte to come here because we have such good 
examples of faith-based initiatives. We are known around the 
country for our public/private partnerships in working together 
to make things happen. It is a regional approach, it is not 
just the city of Charlotte. You will have people here from 
other cities around and that is really good, because we always 
try and work together to make good things happen for the 
region. I think you will be very pleased, Chairman Souder, when 
you hear some of the testimony from the people who are going to 
be talking to you, because they are running truly substantial 
organizations that have been innovative. They think outside the 
box, they try and do things differently and they have been 
successful, which is the key. They literally turn lives around, 
and that is what this is all about. So I am very pleased you 
are here. I look forward to hearing from them and maybe asking 
a couple of questions.
    Mr. Souder. Thank you very much.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record and that any answers to written questions provided by 
the witnesses also be included in the record. Without objection 
it is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without objection 
it is so ordered.
    I go through this every hearing. If I can just briefly 
explain what that means. What it means is that you have to 
have--Congresswoman Myrick is on the powerful Rules Committee 
that sets the guidelines the rest of us can do and runs our 
lives. She does not get to be on a lot of other committees and 
she is not a member of this subcommittee. So to get a waiver to 
go ahead with the hearings, the Democratic ranking member and I 
have to work together, otherwise they could shut down a hearing 
because there is not a quorum of that. Well part of that 
process is allowing all the Members who want to to submit any 
questions. When they review or their staff reviews the record, 
if they want to put something in based on what I said or 
somebody said here, or if they want to send a written question. 
But we do not always agree on all the issues, but very much of 
a bipartisan working effort between Congressman Elijah Cummings 
who heads the Black Caucus, who is the ranking Democrat on our 
committee, we work very closely on drug policy. I have been in 
his district multiple times. And they are pretty much letting 
us go through here. Sometimes we have Democratic staffing 
members added, sometimes we do not. But that is what covers and 
protects all the Members is what I just read. And also, if we 
want to do followup questions, later on we say oops, we did not 
get this in the record when we were reviewing it, we can 
contact each of you or insert different things so when people 
read not only the report, but the hearing record, they can get 
a good mix.
    Now we do one other thing in this committee that is 
different than other committees in Congress. Because we are an 
oversight committee, we have our witnesses take an oath. Now 
what that means is is that if you lie to most committees you 
are in reasonable trouble; if you lie here, you are prosecuted 
for perjury because it is an oversight committee. We have 
actually had some cases go forth--this is the committee that 
did Waco. This is the committee that did the China 
investigations, who hired Craig Livingstone. Much of what you 
saw in the news for about a tumultuous 6 years this committee 
was doing. And so it is a tradition of an oversight committee--
mostly not because of faith-based organizations, but because of 
oversight responsibilities when government agencies try to 
cover up something, that we have this tradition. So I need to 
have each of the witnesses stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    We are going to start with Reverend Tony Marciano, 
executive director of the Charlotte Rescue Mission.

   STATEMENTS OF REVEREND TONY MARCIANO, EXECUTIVE DIRECTOR, 
   CHARLOTTE RESCUE MISSION; REVEREND MABLE HEMPHILL, WORLD 
   OUTREACH MEDICAL CENTER, GASTONIA, NC; AND SHIRLEY STOWE, 
   DIRECTOR OF NURSING AND HOME MANAGEMENT, HOUSE OF MERCY, 
                          BELMONT, NC

    Rev. Marciano. Good morning, Chairman Souder and 
Congresswoman Sue Myrick. Thank you for allowing me to be here.
    Faith-based organizations serve the people of their 
community by fulfilling their vision of meeting the spiritual, 
physical and emotional needs of people. Faith-based 
organizations also bridge the gaps and services that are not 
provided by other sectors of the community.
    Faith-based organizations have a great deal of compassion 
for the people they serve. Sometimes they lack the technical 
competence to provide the services to the people they serve. 
While the organization may be meeting an immediate crisis such 
as dealing with hunger or emergency shelter, it fails to meet 
the deeper needs of the individual that may have driven the 
person to be in need.
    Faith-based organizations that are known to be leaders in 
their communities must bring a concept of dedicated competence 
to their target population. By dedication, I refer to that 
level of calling by God to serve the people who are within 
their target population. By competence, I mean being staffed by 
people that are professionally trained to deal with that 
population. In the substance abuse field where Charlotte Rescue 
Mission serves each and every day we have counselors who are 
certified in substance abuse counseling, licensed professional 
counselors, master's degree counselors, counselors with their 
doctorates, staff who have the technical knowledge of dealing 
with the chemically addicted homeless while having a calling to 
full-time Christian service.
    Besides bringing dedicated competence to the table, faith-
based organizations need to be adequately prepared for their 
population. When dealing with the chemically addicted homeless, 
one study the Charlotte Rescue Mission refers to is a landmark 
book entitled ``A Nation in Denial,'' Westview Press, Boulder, 
CO, 1993, written by public policy analysts Alice Balm and 
Donald Burns. These authors shattered many of the myths 
surrounding the root causes of homelessness. They contend that 
the condition labeled homelessness is best described as a state 
of disaffiliation or complete alienation from meaningful human 
relationships in social support systems most people have 
working for them. As Christians, we might also say that it 
means a lack of sense of community or belonging.
    Based on their research, Balm and Burns conclude that at 
least 65 to 80 percent of all homeless adults suffer from 
chronic alcoholism, drug addiction, mental illness or some 
combination of the three complicated by serious medical 
problems. Of the nearly one-third of homeless adults who suffer 
from chronic psychiatric disorders, half are duly diagnosed 
suffering from addiction to alcohol and/or drugs as well as 
mental illness. A lack of meaningful human relationships is one 
of the core issues of addiction. Dishonesty, blame, 
irresponsibility and outright abuse of those closest to them 
are all a part of the damage cycle of addiction. Mental illness 
adds even more stress and strain to family relationships. So it 
is little wonder that homeless people become alienated from 
their loved ones.
    Faith-based organizations must go beyond anecdotal stories 
to understand the problems as well as the outcomes they seek to 
obtain. As we look at chemical addiction amongst the homeless, 
we often think of the stereotype of homeless men. Let me share 
with you the typical female addict at the Charlotte Rescue 
Mission Dove's Nest Program. Seventy-five percent have had 
experience in multiple-treatment centers and are chronically 
relapsers. Most have had involvement with the legal system at 
some level. Most have lost their homes, families, children and 
relationships to God. Average age is 37.9; 92 percent deal with 
abuse issues usually more than one of the types such as 30 
percent physical abuse, 41 percent emotional abuse, 92 percent 
sexual abuse, 36 percent childhood incest, 31 percent sexual 
assault, 25 percent rape; 45 percent of mental disorders such 
as major depression, bi-polar disease, personality disorders, 
post traumatic stress disorder, eating disorders; 98 percent 
have a poly substance addiction.
    As the faith community deals with the chemically addicted 
homeless, it is imperative that they see the individual before 
them as one being made in the image and likeness of God, one 
whom God has made as body, mind and spirit. It is important 
because each part affects one of the other parts of the 
individual. For example, a crack cocaine addict will deplete 
the serotonin in their brain. When the person begins recovery, 
it will take 2 years for the serotonin to return to normal 
levels. Therefore, while the person will experience episodes of 
depression during his initial 2 years of recovery, the 
depression will not be spiritually or emotionally induced, but 
rather is related to a substance induced neurochemical 
imbalance.
    The issues of dealing with the chemically addicted homeless 
are systemic. It is not only the individual who needs help, but 
there are family issues that also need to be addressed. Family 
members need to learn to have boundaries so the addict does not 
return to a dysfunctional environment that could trigger his or 
her relapse.
    Faith-based organizations provide an opportunity for the 
individual they are serving to recover, as well as learn a 
level of emotional health that most people only dream of, all 
through a personal relationship to God through Jesus Christ. 
Faith-based organizations need to deal with issues such as 
family development, co-dependency, emotional health, basic 
living skills, family exercise--I am sorry, physical exercise, 
recreation, Biblical 12 steps, individual and group counseling, 
family programs and reconnection to the church community.
    As our world becomes more sophisticated, the temptation of 
the faith community is to solve social problems with simplistic 
answers. By that I mean resolving homeless issues by a simple 
faith decision where it is expected all issues are immediately 
solved. This concept does not allow the individual to process 
these changes internally and transform their life. Secular 
programs remove faith from the equation and simply use a 
clinical model to help the individual. Well trained faith-based 
organizations bring a fresh solution, incorporating their faith 
while at the same time using qualified, trained personnel to 
serve its target population with real answers for life's 
challenges.
    Thank you.
    Mr. Souder. Thank you very much for your testimony.
    We will now go to Reverend Mable Hemphill, the World 
Outreach Medical Center in Gastonia.
    [The prepared statement of Reverend Marciano follows:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Rev. Hemphill. Thank you so much. I would like to thank 
Congresswoman Myrick and this panel for having us here. The 
reason I am saying us is because you are only seeing Mable 
Hemphill, you are not looking at the hundreds of volunteers 
that spend so much of their time.
    One thing that I would like to say this morning concerning 
the faith-based is--and I am turning the paper down because I 
am not--it does not work for me. I came from the--I look at the 
streets. I mean that is my day-to-day job. But we do not look 
at dollar signs, we see people. And when we see people we do 
not see problems, we see issues, and for every issue we find a 
solution. Most people that you are seeing--or that we are 
seeing, the only thing they have is their faith. They have no 
money. A lot of them have no families, so that is it. They have 
no food and they have nowhere to go. What we have seen in 
previous years was a lot of the homeless people that were 
living under the bridges, that were on the streets, that had 
addictions, the alcoholism, the drug addiction.
    Now there is a whole new animal out there and that is the 
new homeless, so to speak, and that is the person that has lost 
their job, that has the five-generation textile mentality, 
where my daddy was in the textile mill, grandpa, and so on and 
so on, and their conversation around the dinner table was not a 
money issue, it was just making it from day to day. We are also 
seeing now the person that has lost their job that is living in 
a $200,000 house that is--I mean everyone is like a step away 
from bankruptcy. So we are seeing a lot of that.
    So right now with the faith-base that is it. I mean there 
is nowhere else to go. We have a tremendous amount of 
compassion. We can see way beyond the problem that the person 
has or the issue that the person has, because for every issue 
there had to be a reason that person has that issue. I mean be 
it drugs, be it incest, be it whatever. So we do not see dollar 
signs. We look way beyond dollar signs. We look into the 
future, and we see that person's heart. That is it. We see that 
person's heart. We see the need and we never ask questions 
regardless of race, creed, color, whatever. We never see that.
    That is about all I have to say. I kind of get to the 
point, because when you see the day-to-day operations of 
everyone here, we have very little time. We do not spend a lot 
of time on the hows and the whys. We only see the solutions.
    [The prepared statement of Rev. Hemphill follows:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Souder. Thank you. As I said in the beginning too, any 
of the written statements will be in the record as well.
    Ms. Hemphill. OK.
    Mr. Souder. We now go to Shirley Stowe, director of Nursing 
and Home Management for the House of Mercy in Belmont.
    Ms. Stowe. Thank you for inviting me to be here. I 
appreciate being able to share what we do.
    House of Mercy is a six-bed family care home licensed by 
the State of North Carolina as a family care home. Back in 1991 
when the Sisters developed this ministry, they went out and did 
several years of observation, what the needs were. And I say 
they were--my hat is off to them every day because they were 
way ahead of their time. There is such a need for this. Their 
mission for us is to serve the underserved and give 
compassionate, loving care to those in the advanced stages of 
AIDS. That being said, back in the early days of course there 
were no treatments for AIDS, so everyone came to the House and 
died. Over the last 5 years that has changed a bit.
    Our admission criteria requires that the person be in the 
advanced stages of the disease, but because we serve the 
underserved we get people from all walks of life, and priority 
is given of course to the homeless population. We take people 
off the streets and sometimes are able to--if the doctor 
decides it is appropriate for them to go on the medication, we 
may network them back into society. If they get to us in time 
and can actually stabilize their disease process, then I work 
with case managers out in the community and rehab them. I am 
saying this in a short term. This goes on for months, sometimes 
years to accomplish this process.
    Like my neighbor here, we do not look at their past. We 
love them unconditionally when they come through the door. The 
staff that is there--we are all there because we want to be 
there because of the difference that we make. That may be 
holding the hand of someone and helping them to die comfortably 
in a home environment.
    We do quite a bit of networking in the surrounding--I am 
going to say counties, because the HIV Consortium that is 
located here in Charlotte serves a 13-county region and we do a 
lot of networking within that region. We apply for funds every 
year and have been fortunate to be the recipient of those for 
the past few years. About 20 to 30 percent of our actual 
operating expenses is reimbursed through government sources, 
through Medicaid and Social Security programs. The remainder of 
that has to be raised through grants, fundraising, etc.
    We apply for every year for an Americorps member and have 
been awarded the last 5 years a member and that has really made 
a difference in--this is through the National AIDS Fund, a 
division of the Americorps program. That person serves as sort 
of an extra person to help with volunteer and recreation for 
our residents. That person really does make a difference in our 
patients' quality of lives.
    As I said, we provide 24-hour care. So the staff does 
everything from the bathing, personal needs, to the laundry, to 
the house cleaning. It is not a glamorous job, but it is very, 
very rewarding. We are all hired by the Sisters of Mercy 
because they have basically aged out. There is not enough 
sisters to actually run the operation anymore. It has become a 
passion of mine, and really, I think everybody that is involved 
in the ministry it is a very special place.
    Thank you.
    [The prepared statement of Ms. Stowe follows:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Souder. Thank you each for your testimony and for your 
service.
    We will do a number of rounds of questions. We may ask you 
some written questions so we kind of from hearing to hearing 
have the same questions going to the different witnesses. But I 
want to pursue a couple of different lines of questioning here.
    Could I ask each of you to briefly state why you consider 
yourself a faith-based organization? In other words, how does 
that make you different than a traditional service 
organization? What would you say are the components? Is it your 
staff hiring, is it a process people have to go through, is 
there anything that is peculiarly faith-based or are you a 
secular organization staffed by people of faith, which is a 
slightly different type of thing because Christians work for 
the welfare department, too. It's not to say only faith-based 
organizations have Christians working there. What makes your 
organization uniquely a faith-based organization as opposed to 
a social service organization that Christians are working in?
    Rev. Marciano. I think if you look at the first seven words 
of the purpose statement of the Charlotte Rescue Mission--the 
first seven words say to minister the good news of 
Christianity. We are not a social service agency. I think we 
deliver incredible social services, but we are first and 
foremost a ministry. And I define the word ministry as 
reconnecting people back to God. The target population that God 
has called us to serve is the chemically addicted homeless. But 
no, we are not a social service agency. We are people that are 
Christians. We are a Christian organization staffed by 
Christians whose goal is to minister and, as I say, reconnect 
people back to God, and our purpose statement I think clearly 
articulates that.
    Mr. Souder. Reverend Hemphill.
    Rev. Hemphill. I am a licensed, ordained minister. I used 
to be banker. I never planned on being a minister and thought 
my calling was doing something else, but my calling was with 
the--and I do not like to say less fortunate--but was with that 
area of people. Plus, our ministry is in the basement of the 
church. We are a mission. It was a Baptist church. It went from 
Baptist to the Church of God. Now it is a mission with all 
faiths in there. We took a look at the area. The area where the 
church is, we have Hispanics on one side, a crack house over 
there, we are in the hood. We look like we are not, but we are 
in the hood so to speak. And then we have the so-called 
rednecks behind us. We have kind of a--it is a mixed 
neighborhood. A perfect place. It is really a mixed 
neighborhood. So we took a look at the need, and the need for 
that area was a--right now we are doing the--I just found it--
not me, but some people that work along with me. Every agency 
in Gaston County and the surrounding counties, we are trying to 
get everyone involved. But we took a look at the area and 
because of the area and because of the need, we just founded 
the Southern Piedmont Health Center, which is a no-cost clinic 
for the medically underserved.
    So one thing that makes us unique is I am a licensed 
ordained minister. It is in the basement of the church. We do 
not think about whether you are a Baptist or whether you are 
Episcopalian, if you are a Muslim, we never think about that. 
We only see how we can best serve. And being a licensed, 
ordained minister, trust me, you are a servant. You are not out 
there for the money. You are a servant, not only a servant of 
God, but you are a servant of the people.
    Mr. Souder. Ms. Stowe.
    Ms. Stowe. Well the Sisters of Mercy--first of all, the 
house is located on their property and their convent is on our 
campus. It is the old Sacred Heart College Campus. They are the 
ones that went out back in the late 1980's and actually 
scrambled up the money to build the bricks and mortar for the 
facility. I am an RN hired by the president, who is my boss, 
who reports to a board of directors and there are Sisters on 
the board of directors, and then the board of directors, 
actually if they want to make any major changes in the mission 
or anything like that--which has never been changed, by the 
way--they report to the board of the Sisters. So we are very--
you know, we have a Sister that visits the site every day. It 
is just that they just do not have enough people to--they 
actually staffed the house and lived at the house back in 1991 
when it was first opened, but they quickly learned that was 
just too big a job, and there are not people to actually work 
there hands-on, so they have hired--I have been asked a lot of 
times are you a sister. People think out in the community that 
I am a sister because I have been so heavily involved for so 
many years, but I am not.
    Mr. Souder. Well let me ask you a couple of very difficult 
questions that we are having to deal with, at least when it 
touches government-type funding. And interestingly--well let me 
ask you a couple of questions. Let me ask you three different 
questions. Not about who you serve, by the way, because 
literally there should not be any discrimination in who you 
serve. Certainly if you had any government funds, but most even 
private donors would not want you discriminating in who you 
serve. It is partly a question of who you hire and what you do. 
Could each of you answer this question? Would you hire someone 
who does not share your faith? If it is a Muslim organization, 
would you hire a Christian? If you are a Jewish organization, 
would you hire a Christian? If you are a Christian 
organization, would you hire a Muslim on your staff?
    Second, do you pray with your clients, and would that 
change your mission if you were not allowed to pray?
    And then third--and this is one that is not talked about as 
much. Many organizations have a standard you do not have to be 
convicted in court to fire somebody. For example, if you heard 
that somebody in your congregation or group was abusing a child 
or was running around with somebody when they were married, or 
there was an allegation from somebody on your staff that they 
bought drugs or were selling drugs but they were not convicted. 
If you are a government agency you cannot fire--or if you get 
government funds, you cannot fire unless it has been convicted 
in court. But most religious organizations because they view 
themselves as, in a Christian sense, reflecting the glory of 
Christ believe that even if there is substantial evidence you 
cannot run the risk. So are any of those three things--who you 
would hire, on what basis you would limit your flexibility to 
terminate somebody and whether you are allowed to pray--make a 
difference if you were told you could not do those things?
    Do you want to start, Ms. Stowe? We will go the reverse 
direction.
    Ms. Stowe. As far as hiring based on religion, I do all the 
hiring of the staff, the caregivers and I have never asked 
anyone what their religion is. The only reference to religion 
would be that both with employees and with volunteers is they 
are told we respect our clients' wishes. Just because we are 
Catholic, we do not ask the residents what religion they are, 
that makes no difference.
    Mr. Souder. Not the residents, the staff?
    Ms. Stowe. Yes.
    Mr. Souder. Would you ask--would you have a staff----
    Ms. Stowe. Absolutely not, no, no.
    Mr. Souder. You would not have a Muslim staffer?
    Ms. Stowe. No, we would not--we do not even know what 
religion our staff is.
    Mr. Souder. So you would not ask them----
    Ms. Stowe. No.
    Mr. Souder [continuing]. If they share your belief?
    Ms. Stowe. Heavens, no, no.
    Mr. Souder. OK.
    Ms. Stowe. We just do not want to impart any religious on 
our residents either. Obviously religion comes up, because when 
people are facing death, people turn back to their inner faith, 
whatever that might be. And we respect each and every person's 
own beliefs on that.
    Mr. Souder. Similarly on other hiring and firing practices?
    Ms. Stowe. Oh yeah, we--I----
    Mr. Souder. Would you terminate somebody without them being 
convicted?
    Ms. Stowe. No. We get a criminal history on everyone when 
they are hired.
    Mr. Souder. I am not talking about people. A lot of times a 
church-based organization will be different from a secular-
based organization.
    Ms. Stowe. No.
    Mr. Souder. Well, you have kind of answered the prayer 
question as well.
    Reverend Hemphill.
    Rev. Hemphill. I have no problem hiring whomever if you are 
qualified, you know, because basically that is not what we are 
looking at. Sometimes I would like to just take a look and say 
well, I am not looking for the person with the master's degree, 
I am looking for the person that can basically do the job. But 
being Islamic, being whomever, that plays no part in it, 
because one of the engineers that is part of this organization 
is atheist and I am a licensed, ordained minister, but I do not 
pray with, we do not pray with our clients. I never thought 
about it. You know, they do not even have, even though the 
ministry is in the basement of the church, they do not have to 
come to our church on Sunday morning. I mean that is nothing, 
it is nothing relevant to that. It is totally faith-based. So 
it is people of different faiths.
    Third, it is innocent until proven guilty. That is it, 
innocent until proven guilty. I try not to put my opinions--I 
keep my opinions to myself and everyone that is part of the 
organization, even to the board of directors, we keep our 
opinions to ourselves because we see so much. Even with the 
prayer, I mean if someone is atheist maybe they do not want you 
to pray with them. So it never comes up. They are not 
encouraged or even asked to come to church on Sunday mornings. 
It is innocent until proven guilty.
    Mr. Souder. Reverend Marciano.
    Rev. Marciano. Can I go back to our purpose statement? The 
first seven words is to minister the good news of Christianity. 
So yes, in our application we ask you for your church 
affiliation. Our statement of faith is attached to the 
application, so there are no questions about who we are and who 
we are hiring. We expect people, as they sign off on the 
application, to sign off on our statement of faith. That is 
key, because even though we have people from different 
denominations--Presbyterian, Baptist, Methodist, etc.--we need 
to make sure that everybody is on the same page, you know, as 
we work with the chemically addicted homeless. And this is kind 
of a side note. We use the 12 steps and our counselors need to 
even sign off on their willingness to use the 12 steps. There 
are some Christians that do not believe in the 12 steps. So if 
they did not, they would not fit with Charlotte Rescue Mission 
even though they may be Christians. So we have a lot of issues 
that we have to deal with.
    In terms of praying with the clients, everything in the 
Rescue Mission is required. There is no optional service. I 
jokingly say you do not have to be a Christian as a client to 
get into Charlotte Rescue Mission. You do not have to be a 
Christian to get out of Charlotte Rescue Mission as a client, 
but the program is consistent to everybody who is a part of it.
    Regarding employees, I think, as has been said before, you 
are innocent until proven guilty. I mean, if a client accuses a 
staff member of sexually abusing them, we have to investigate 
it, and I cannot fire somebody if the evidence is not there. 
The same thing if a staff member is accused of using drugs, and 
I drug test them and the drug test comes out negative. I cannot 
fire them even if somebody said that they did something.
    Mr. Souder. I want to pursue this one step further because 
it is one of our challenges as we move through and there is a 
wide diversity that as far as government programs and as far as 
the most hotly debated component charitable choice, the 
programs of Ms. Stowe and Reverend Hemphill are already 
eligible. There would be no need for faith-based legislation, 
because while you are religious in a personal level, it is not 
going into your program; therefore, that is not really what is 
part of the national debate. The Rescue Mission would be. So 
the challenges with your faith-based organizations are 
different than the challenge with faith-based organizations 
such as a rescue mission.
    Now let me briefly separate the two because I want to get 
on the record what your challenges are. Reverend Hemphill, I 
heard Ms. Stowe talk a little bit about where her funding 
sources were. What are your primary funding sources at the 
present time? Do you get any government assistance at the 
Federal, State or local?
    Rev. Hemphill. None.
    Mr. Souder. Mostly private donors?
    Rev. Hemphill. Right now mostly private donations. We had 
one 501(c)(3) and when we founded the medical center, which we 
are working on, which the CPAs and attorneys are working on 
now, we have to get another 501(c)(3) because there were two 
different missions in there. So no, we have never gotten any 
government funds, everything was private donations, businesses. 
We run on a shoestring budget. So it is really businesses 
donating time, materials. I mean everything we have is donated. 
We have never asked for government funding.
    Mr. Souder. Have either of you--for that matter, the Rescue 
Mission as well. Is there any kind or have you heard of in your 
field, forget government right now, in any of your fields, any 
of the articles you have seen, any of the networks that you may 
have heard of these different types of groups where they work 
with AIDS or homeless or whatever, seen any kind of place where 
they say here are organizations that donate? Here are ways to 
work with raising money or getting awareness? Is there any kind 
of interconnectedness with that? And if you could also answer 
at the same time, have you ever had any foundations or groups 
have any kind of effectiveness criteria with which to measure? 
In other words, one of the things that we, as every Member of 
Congress, hear from foundations and others, it is very 
difficult to figure out who is effective at the grassroots 
level and who is not. Have any of you in your day-to-day run 
into either effectiveness measures where funders are trying to 
look for that or have you heard of such a thing or have you 
ever been to a conference or any guidelines or is there any 
Internet developments of things of how to hook up where 
resources are, because you are busy out there drowning trying 
to take care of people. The question is, how do you get 
awareness, get the information out about your effectiveness 
other than an occasional media story or occasional press 
conference?
    Rev. Marciano. One of the things that we have tried to do 
at the Rescue Mission is--and we are blessed. Back in 1994, UNC 
Greensboro did a study on us and it was called Treatment Center 
on a Shoestring Budget and they compared us with treatment 
centers with 10 times the budget and 10 times the staff. What 
they found is at the end of 30 days 75 percent of our clients 
were still in the program. The national average was 25 percent. 
At the end of 90 days 42 percent of our clients were still in 
the program. The national average was 18 percent. I can get you 
a copy of the study. And it is an outside study. So it is not 
us saying here is what our outcomes want to be and here is what 
we decided our outcomes were. This university professor looked 
at us and she assessed what our outcomes were. That is really 
one of the things that we use to market our effectiveness to 
individuals and to foundations, that we are running at twice 
the national average with one-tenth the budget and one-tenth 
the staff.
    Regarding fundraising, I think--and one of the good things 
about Charlotte is, people help each other all the time. You 
know, there is the Association of Fund Raising Professionals. 
Organizations will help each other with fundraising techniques 
and those sort of things. It is not the mentality that so often 
I hear of, there is a limited amount of money and agencies are 
fighting over it. I think the mentality is there are people out 
there that are looking for ways to invest their charitable 
dollars, and if they are not interested in the Rescue Mission, 
maybe they are interested in your agency, and let me tell you 
how to connect to them. I have done that with other agencies. I 
was mentored by the executive director of the Denver Rescue 
Mission and I take what he has taught me and willingly share 
with other agencies.
    Rev. Hemphill. We form a lot of partnerships. We have 
partnered with every agency in our surrounding area. We have 
partnered with--right now we partner with probably--I think it 
is Hospice--some things I do not know because I have other 
people that take care of this. But I know right now, we are 
probably doing 26 partnerships. All of our studies came through 
Volunteers in America. I think it might be on the Web site, 
VIM, we just joined the association and we have a consultant 
that basically is assisting us. At the present time, I think it 
is costing $61 per person just for the things we are doing. 
They basically, you know, take care of every aspect as to 
seeing, you know, what it takes to run this ministry. What it 
will take 5, 10, 20 years to run the ministry. So we do have 
guidelines. But our guidelines--we have a board of directors, 
Caremont Hospital, because we are so involved, we have a board 
of directors of just different people from different walks of 
life, our trustees. Everybody just kind of takes a look at the 
criteria and see what it takes to make the ministry go and then 
our guidelines. I think now with Volunteers of America, because 
we just got a consultant.
    Mr. Souder. Ms. Stowe.
    Ms. Stowe. We have a lady who handles the funding. I do not 
have a lot of knowledge of exactly what she does to find 
funding sources, but I know she scrambles a lot. So does my 
boss. And as far as--and I know they do a lot of applications 
because we do get money from foundations.
    As far as the effectiveness and ways to measure, I do not 
have a lot of statistics in my head as far as, you know, the 
breakdown of who we serve and how many actually leave or how 
many die. It does not really matter how many die or leave the 
facility because we are there to serve whatever the need is of 
that client. But really it is kind of difficult unless you go 
out and tell people about the work or if people come onsite. I 
love to have people come in because they are always impacted. I 
have had people say this place is so warm when they just--you 
know, that tells the story best, is to have people visit.
    Mr. Souder. I yield to Congresswoman--go ahead.
    Rev. Hemphill. One thing I would like to say is that--like 
I said before, we do not see dollar signs. So it is almost--it 
is very difficult to measure because we do see so many--I mean 
we see different people from different walks of life. So then 
you probably have to say how many people do you serve per year, 
and that is very difficult because of our location. We are kind 
of in the center. So we see--there is a group home--two group 
homes that is behind us that--one is an alcoholic--two of them 
are alcoholic homes. There is a halfway house in front of us, 
there is a Salvation Army to the right of us. So it is kind 
of--everything that we do--we do a lot of newspaper articles 
and--I think we just did some television advertising on Channel 
14 to let people know basically what we do. But a lot of things 
are word-of-mouth. You know, it is kind of word-of-mouth. We do 
get a lot of people who just like to come in and take a look at 
where we are. But it is word-of-mouth because it is a revolving 
door. We have a revolving door here.
    Ms. Myrick. The administration has been working and through 
Congress, we have been looking at trying to change--neutralize 
and change Federal guidelines that make it easier for you all 
to apply for Federal funds and to receive these Federal funds 
to provide the social services. You may not have an answer 
because you maybe have not thought about it, and if not, I 
would like you to see if you could get back, you know, after 
you have had time to think about it. But is there anything that 
you can think of that would make it easier or better for you, 
changes that could be made so you would have what is considered 
an equal access to these Federal funds to provide the services? 
Is there anything standing in your way I guess is another way 
to put it?
    Ms. Stowe. I can think of one. This may not be in your 
territory. We are so close to the South Carolina border. One of 
my huge frustrations is, we have a wonderful AID service 
organization just across the border in Rock Hill, SC and the 
Medicaid--I guess this is a state-to-state thing. But the 
Medicaid guidelines do not reciprocate and if I took someone 
from South Carolina into North Carolina, they would have to be 
a resident 3 months. We would have no funding for 3 months. We 
cannot afford to buy their medicines for 3 months. That is a 
frustration. I feel so bad for those people down there. We want 
to serve people, and we have. We have taken people from other 
States and they play little games and get their medications 
elsewhere.
    Ms. Myrick. This is a common problem because we are so 
close. We run into this with other things, too, but it is a 
very good point.
    Rev. Hemphill. The grant application--some of the grant 
applications are this thick [indicating approximately 2 
inches]. The grant applications, I do not get to see it. A lot 
of things I do not get to see. I happened to see that one. They 
are a little intricate, but we know it has to be that way.
    Ms. Myrick. It needs to be simplified so you can 
legitimately do it yourselves and not have to have somebody who 
has all this experience fill it out for you, right.
    Rev. Hemphill. Yes, ma'am, because a lot of times we do not 
have the funds to hire someone to do this properly and grant 
applications like this, I mean trim them down a bit.
    Ms. Myrick. Tony.
    Rev. Marciano. Our concern has to do with the television 
show Bay Watch. If I can tell you a quick story. A couple of 
years ago was the only time in my history at the Mission I made 
a chapel service voluntary. We had a special speaker that was 
coming and I announced on Friday that it was going to be on 
Saturday night. As I got to the Mission at 6:50 to round up the 
guys, I went into the television lounge and the show was ending 
and as 7 o'clock began to hit Bay Watch was coming on. I said 
guys, come on, Pastor Mack is here from Progressive Baptist 
Church. He is a great man of God, you need to hear him speak. 
They said, well, Reverend, we really would rather watch 
television, and as they were saying that Bay Watch was 
beginning to roll. I teased them and I said oh, you would 
really rather watch Bay Watch and they said no, you do not 
understand. I honored my word and I kept it voluntary. But one 
of the challenges we face is that in the faith-based initiative 
what has come back to me is that services are voluntary and I 
jokingly say I cannot compete with Bay Watch. If they have a 
choice of hearing a great man of God or watching a television 
show called Bay Watch I can prove to you they will opt for Bay 
Watch.
    Ms. Myrick. Good point.
    Rev. Hemphill. May I answer. What I would like to kind of 
interject here is, we know that you have very little time, but 
just take some time and come see. Come and visit. You know, 
just drop in during the week. You are very welcome to drop in 
unannounced. Just kind of give me a call.
    Ms. Myrick. I will do that. I have been to most everybody 
else who is here today, but I have not been to yours, so we 
will make it a point to do that.
    Rev. Hemphill. Oh, OK. Thank you.
    Ms. Myrick. Thank you all.
    Mr. Souder. I want to thank Congresswoman Myrick. She has 
to leave shortly. So I appreciate her coming this morning as we 
arranged and worked with her and her office to put together 
this hearing. I know that Reverend Marciano has an 11:15 
deadline looming on me, so I am going to ask a few more 
questions here that I want to followup with.
    My district is in northeast Indiana, Fort Wayne is the 
anchor city. There are a number of other cities in it as well. 
One of the things that we were exploring is that in, I think in 
Reverend Hemphill's testimony you refer to it as a small 
business center, that as we in the government have worked in 
small business resource centers, we pooled to provide grant 
writing for some small businesses. The question is, why can't 
universities in a given area work with the faith-based office 
using to some degree professors and/or students where you could 
in effect put in a building like we do with the small business 
resource centers where you could have ideally a place where you 
could get some relationships going with a university, where you 
could get a temporary office where you could get assistance, 
where you would have the Federal Register come in, where you 
would have a place to see what kind of grants would be 
available? Have you heard of anything like that in this area 
before? Has anybody raised that and would it be something that 
you think you might use if it existed?
    Rev. Hemphill. That is a definite. In our area it would be 
widely used because we had to--on our board of directors and 
also part of the organizational committee, we have a grant 
consultant who was the former executive director of the Boys 
Club and he just volunteered to come in and to help us because 
of what we are doing, and we have very little time. And when 
you have very little time and you are understaffed, he just 
kind of jumped in and said yeah, I will be part of the 
organizational committee, I will be part of the board of 
directors. He is a jewel.
    Mr. Souder. And this would not have to be just for 
government grants. It could also be for foundations, United 
Way. It could help figure out what measurements they are 
looking for.
    Ms. Stowe, do you have any comments?
    Ms. Stowe. I think it sounds like a fantastic idea. Grant 
writing is not part of my responsibility, but I think the 
organization is open to help however we can get it. We do have 
some partnerships with area universities to have student nurses 
come in and offer experiences. I love working with students and 
any time we have the opportunity to share that we do, but I am 
not aware of anything like this.
    Mr. Souder. Reverend Marciano, go ahead. I have a number of 
things I want to go into.
    Rev. Marciano. I like your idea. The American Society of 
Fund Raising Professionals has said that 85 percent of an 
organization's income comes from individuals, 5 percent from 
foundations, 5 percent from businesses and 5 percent from 
wills. And as I work and help out very young non-profits, the 
two things that they historically chase after is special event 
money, car washes and those sort of things and foundation money 
and they put a lot of energy into that. It may be taking your 
idea, and I like it, but teaching nonprofits to cultivate 
relationships with donors, if 85 percent of a healthy nonprofit 
organization comes from individuals then they really should be 
spending 85 percent of their development time cultivating those 
donor relationships. That is something that is usually not done 
in terms of training. And if universities and your idea could 
help nonprofits do that, then the world is truly our oyster.
    Mr. Souder. I have a couple of things I want to pursue 
directly with you for a couple of minutes. We have been doing 
these hearings, what kind of fruition, what in effect can the 
government do other than kind of mess things up, which we do 
very well, but what can we do from a positive standpoint? It is 
clear to me, and this panel is interesting because you have 
illustrated the diversity, one element of the diversity in 
types that we are seeing all over the country. In other words, 
first something that you may not be aware of is that the first 
faith-based initiative started under, where there was really a 
direct effort, started under President Reagan in the early 
1980's with homelessness, because--excuse me, with AIDS, 
because as you mentioned, because there was this theory that 
you could catch AIDS, really about the only people that would 
do this were people who were secure in their salvation, and so 
the religious groups started first and were the first anchor of 
AIDS. Nobody would take AIDS patients, so all of a sudden 
government grants started flowing to religious organizations 
because nobody else would take them.
    The second group, when Anna Condradas was at HUD, was in 
the homeless area, because there simply wasn't enough of a 
public will to put enough dollars into the homeless area. So 
homelessness was one of the other categories where for years 
nobody looked at the question of were you praying, who were you 
hiring, what were you doing, because man, the people with AIDS 
were dying. The people were homeless on the street. If anybody 
will help them, get them the money.
    When we moved into drug treatment, we moved into the 
insurance business, huge providers in other areas where all of 
a sudden there was competition. When you move into mental 
health, when you move into juvenile delinquency, there are 
whole structures that deliver a lot of those services, and when 
faith-based organizations started to apply in those areas all 
of a sudden a whole bunch of different questions came up.
    And you represent another interesting thing here, and that 
is that there are variations within each, but to over-
stereotype, and I am going to grant first of all, even in our 
witnesses at our hearings, that this is not pure. The Catholic 
Church is more willing--I am an Evangelical out of a 
Fundamentalist background who also has a graduate degree from 
Notre Dame, so I am fairly ecumenical Evangelical 
Fundamentalist and have a pretty good understanding, at least 
superficial, of a lot of the different denominations. The 
Catholic Church generally speaking is more flexible on the 
hiring practices and the faith based. That is not uniformly 
true. In Chicago we had a couple of cases where they were 
saying that faith and prayer were a critical component in their 
organization and would not apply for government funds. But 
generally speaking Catholic and the Lutheran churches split to 
some degree, even inside the Senate on the organizations, 
depending on, even into the Missouri Senate, which kind of 
faction they are in the Missouri Senate. In the African 
American community in particular, it is much more diverse and 
ecumenical, although they are--because it is mostly Evangelical 
the Muslim question has complicated things in many urban areas. 
But they are so much more resource challenged that they are 
more likely to change whatever is needed to get the dollars, 
because they may not have a large denomination backing them up 
with systematic parishes like the Missouri Senate or like the 
Catholic Church and may not have members in their denomination 
or contacts with the wealthy business community with which to 
develop a private donor base, which is getting to your point in 
the Rescue Mission. It kind of depends on who you have access 
to, whether your are denominational based, whether your are in 
a community, particularly what the whole faith-based initiative 
is trying to. One of the things that started with that was, 
African American and Hispanic groups that are in the poor urban 
neighborhoods who basically mostly have people, a high 
percentage of their congregations are on public assistance. So 
they do not have access often to the power brokers in the 
community. They do not know how to write the grants. How in the 
world can we help these neighborhoods who live in their own zip 
code get assistance? Then the collateral which is in my opinion 
predominantly Evangelical organizations who are very nervous 
about government, and I am nervous about the government 
undermining the mission of the Rescue Mission. I would like to 
figure out, OK, well what can we do to assist without tampering 
with what makes you effective.
    Now, I want to come to Reverend Marciano. I wanted to lay 
that foundation. Could you, just first because you have raised 
this interesting question of individual donors. How would you 
match groups that do not have traditional access that are 
somewhat uncomfortable often even in the style approach. I am 
not saying just Reverend Hemphill's organization, but that is a 
good example. She may not have immediate access to large 
donors. How would you do a training session for that? What 
would the difference be from say from your organization? Rescue 
missions are fairly well known, their success goes up and down 
depending on the bottom line effectiveness of the executive 
director, people like yourself would then get a good board and 
get out. We have a very successful one in Fort Wayne that I 
support. The executive director, Reverend Humphries has been 
there a long time and has really built the relationships and 
that is there, but they do vary city by city. But how would you 
transfer this then to a group that does not necessarily have 
any access to the traditional money routes in the city?
    Rev. Marciano. When I got to Charlotte Rescue Mission there 
was no executive assistant, administrative assistant, there was 
no nothing. When the copier died we flipped a coin to see who 
would repair it, you know, and called the company. So there was 
none of that. Things have changed in the 7 years I have been 
here. I say all of that to say that I was blessed to mentor 
with the executive director of the Denver Rescue Mission. When 
I started with him and I said to him, Dell, if you were on the 
board of directors of the Charlotte Rescue Mission and you had 
to evaluate Tony Marciano, how would you do it? Without missing 
a heartbeat he said, Tony, there are three things you are 
responsible for. He said it is program, administration and 
development. He said it is a three-legged stool, and he said 
the problem is in most missions, and you could translate it to 
faith-based organizations, is that the stool is unlevel. That 
the program leg is very tall and very strong. The 
administrative leg is long enough to keep the IRS at bay and 
the development leg does not even exist and the stool is 
crooked and the organization is sliding off of it. He said, 
Tony, your job is to keep the stool level regardless of how the 
organization grows. So as I work with nonprofits, and kind of 
the test is I throw this thought out to them, and I can tell in 
a moment whether or not the executive director wants to be in 
program or wants to really be the head of the organization. I 
met with one young lady as we talked this through. I said to 
her, you really do not want to be the executive director. You 
really just want to be with the clients and pray with them and 
hold hands with them and she kind of looked at me and her 
shoulders kind of went down and said you are right. I said that 
is not the job of the executive director, you know, that is the 
program director. The executive director is responsible for 
this stool. So as I work with nonprofits, I can quickly tell 
where the executive director is at. Is he or she interested in 
meeting the needs of the person or is he or she interested in 
growing this organization? At a point the executive director 
has to step aside and let other people do the program, 
administration and development as he or she leads the 
organization.
    Mr. Souder. Thank you. We may do some followup on how to do 
that because while we disagree in Washington on the charitable 
choice provisions, and I authored, I carried four of the ones 
that are current law because I believe you should be able to 
hire who you need and I believe we need to get the dollars. But 
I am having some second thoughts because I am worried the 
government is going to change the mission in the process here. 
But the two most important parts are things that we are trying 
to address, and we actually have a lot of bipartisan support 
for. One is the tax credits. In other words, to give more value 
to people who give you the money, which helps your individual 
donors but does not help you on the government side.
    The second thing is a training component. Whether it would 
be groups like the Rescue Mission that might not want 
government funds but would be eligible for government funds 
under many standards but would still get that kind of basic 
training, presumably by people from the field not by somebody 
who has only been in college and taught it. Not that there is 
anything wrong with that, but somebody also who has field 
experience. And also groups like those of Reverend Hemphill and 
Ms. Stowe who may seek government grants but still need the 
similar guidance of how to do that mix. And so I think we are 
moving some in that direction as we resolve some of the more 
difficult--I have one more question for you, because it was 
alluded to I think both by Ms. Stowe and Reverend Hemphill, and 
I am sure it is true at the Rescue Mission, too. In your hiring 
practices, not criteria for hiring, but you referred to the 
increasing difficulty of the Sisters to get enough people to 
staff. Is there anything that we can do that would provide 
incentives? In other words, let us say there are restrictions 
in cash transfer. Can you think of other things that we might 
be able to do that would help in recruiting? We have worked 
with legal liability questions of suits. Some people are afraid 
to volunteer because they are going to get sued and 
organizations are afraid. I cannot remember whether I dropped 
the bill. We have certainly talked about it. I know we 
increased at one point mileage reimbursement for volunteers. 
Are there other things in the tax code that we might be able to 
look for that would be helpful to you on the staffing and 
volunteer side that would avoid some of the other kinds of 
debates to help you in recruiting?
    Rev. Marciano. One of the things that we are seeing is that 
people are mid-career. They have been in corporate America and 
maybe they are not fulfilled and they want to jump to the 
nonprofit sector but they are looking at taking a 40 percent 
hit in income. So how do they deal with that when they have a, 
let us say a 30-year mortgage and they are 10 years into it? 
Those people are excellent. They may have MBAs, they may have a 
heart for what we are doing, but how do they go from Bank of 
America, let us say, to Charlotte Rescue Mission? And they 
would bring such wisdom and experience. So maybe some of the 
things you can help us do is let us say with mortgage loans. 
Maybe they can get half a percent loan or a 1-percent mortgage 
rate cheaper if they stayed with the nonprofit organization for 
5 years or other things like this. Maybe there are other 
financial incentives maybe with auto loans or other things like 
this. Maybe tax credits under home mortgages, you know, for 
going from Bank of America to Charlotte Rescue Mission as an 
incentive, because what they bring is all that training that I 
spoke about earlier when I first addressed this committee. They 
bring that to a nonprofit organization. As nonprofits are 
getting more and more sophisticated we are moving from mom and 
pop operations to well structured organizations. We need people 
with MBAs, we need people with HR experience, even as you 
talked about some of the staffing issues. Once you get beyond a 
certain number of employees you almost have to dedicate an 
employee just to deal with all the HR issues. All the FMLA, 
HPPA regulations that Bank of America has to deal with, 
Charlotte Rescue Mission has to deal with.
    Mr. Souder. Reverend Hemphill or Ms. Stowe, do you have any 
suggestions? Do you get a slightly different volunteer mix? 
Would there be something we could do in the schools? In 
Americorps, we have made faith-based organizations, regardless 
of their practices, eligible for Americorps. But even there, 
how do we stimulate more people to get involved in that? People 
objected, including me, when we first started looking at paying 
volunteers, but we put a criteria in that those volunteers have 
to be organizing and recruiting other volunteers.
    Ms. Stowe. Yeah, I so support the Americorps program. I 
just do not know what we will do if we do not get--I worry 
every year. I start worrying before they even leave. They cut 
the program this year. I feel like such a mentor to those folks 
because they struggle financially and they have to call the 
people in Washington that are over the program about insurance 
issues and they are such strugglers. But I feel like we give 
those members so much in experience. I feel like we have so 
much to offer. I just so believe in that program. And when they 
do site visits often times they will come to House of Mercy 
because I am their field supervisor and I love the program, 
anything I can do to support that program.
    But I love his ideas about the tax incentives for our 
staff. I mean our, my staff is much more lower paid, they are 
CNAs, they are caregivers, we cannot afford nurses anymore. I 
am the only nurse left and I am totally administrative. I wear 
a lot of hats.
    Mr. Souder. My background is more of a business background. 
In fact, when I was in grad school, they have, for example, we 
have SCORE, who are retired executives who come back and help 
small businesses. Could we set up a similar thing for that to 
work in volunteer organizations? When I was in grad school, we 
got class credit for it. Part of our small business class was 
we had to take an applicant into the small business, who was 
applying to the Small Business Administration, go into their 
neighborhood, help them with their grant structure for a small 
business loan, do a market plan for them to help, because often 
they were people who wanted to get off welfare or start a 
business of their own, but they did not have any idea how to, 
you know, assess. Not that we had all that much experience 
either, but we had a little more theoretical experience in how 
to do a market plan, how to fill out the paperwork and that 
kind of stuff. So clearly there are university precedents for 
students or university precedents or business precedents, but 
they are all toward economic development areas. I am wondering, 
you know, whether you have seen anything like that in the 
social service areas?
    Rev. Hemphill. One thing that is helping us is we are 
getting a lot of input from retired doctors. I do not know a 
lot of things about the malpractice, but there is one fear 
because we are doing the free clinic now. That is the next arm. 
They are kind of leery of being a volunteer, to be a volunteer 
in a free-clinic setting. You know, they are afraid of getting 
sued. So that will be something that we would like for you to 
take a look at. I always tell these other people behind me, 
because they are afraid of getting sued, even the executives. 
Everybody is afraid of getting sued. If we come here and 
volunteer, you know, they say they might be homeless and the 
indigent might be indigent but they are not stupid. And they 
are definitely afraid of getting sued.
    Mr. Souder. That is a good, another good idea that we can 
look at. This is a huge problem in Detroit. Even in hospitals 
they have very few doctors. Indianapolis, IN; Chicago, they 
have very few doctors that will take young mothers under 17, 
even for delivery, because they are afraid with the low birth 
weight something could happen and they will be sued. There's 
kind of an odd relationship between my hometown and North 
Carolina, because we have a major company based there, Medical 
Protective, or Med Pro, that is the primary insurer of doctors 
in North Carolina and they have lost a lot of money in North 
Carolina, and like other companies, have looked at even pulling 
out because of the lawsuits here on doctors. So it is not an 
illegitimate concern that they have this decision of how high 
do you make the rates. If the rates are too high, then you have 
to get high paying clients, not clients who cannot afford to 
pay it, just to cover your insurance rates. In southern 
Indiana--to use another anecdotal story, in Evansville, which 
is the other end of the State from me, but when I worked for 
our senator at that time, a number of years ago before Indiana 
changed some of their medical malpractice, in Evansville, IN 
the difference, this is some time ago, and I am going to make 
up the dollars, but it is roughly like this. The difference in 
medical malpractice for a doctor in Evansville versus one 
across the border in Illinois was $20,000 versus $120,000 a 
year. Now what happened was, no doctors in southern Illinois 
would deliver babies and they were all delivered across the 
State line, and you can imagine what that did with Medicaid. We 
have that problem all over the place.
    So we have a number of things we need to address. It is 
very controversial. You do not want to have people held, 
butchered and then not be able to get their money back. But 
when you are dealing with faith-based organizations and 
volunteering in places where you are dealing with people who 
are hurting and then they cannot get medical services, we 
clearly are going to have to figure out how to do that.
    Is there anything else you would like to add for the 
record, either of you?
    [No response.]
    Mr. Souder. Well, I thank you very much for coming, but 
most importantly for your work. You are dealing in two areas 
that can overwhelm even the most heartfelt soul who wants to 
help. Thank you very much.
    If the second panel could come forward. Alice Harrison; 
Ginny Amendum. Did I get that right? I will get that corrected 
in a second. And Pat Marcum. I do not believe Cindy Marshall is 
here. Ginny Amendum, I butchered your name. I apologize.
    Ms. Amendum. That is OK, most people do.
    Mr. Souder. You can remain standing and we will do the 
oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Thank you for coming out today. As I mentioned, your full 
testimony will be put in the record. You are welcome to go 
through it or to say whatever you want. They go in the 
permanent record of the U.S. Congress with your opinions on 
this subject. I am looking forward to hearing from each of you. 
If Alice could start, she is the executive director of Hope 
Haven in Charlotte, NC.

 STATEMENTS OF ALICE HARRISON, EXECUTIVE DIRECTOR, HOPE HAVE, 
    CHARLOTTE, NC; GINNY AMENDUM, THOMPSON CHILDREN'S HOME, 
 CHARLOTTE, NC; AND PAT MARCUM, LOVE INC OF MECKLENBURG COUNTY

    Ms. Harrison. Greetings. I have divided this into three 
areas. What faith can build. Hope Haven was created on the 
faith of two wonderful women. It was expanded on the faith of 
our board and staff. It is successful because of the faith 
placed in our program by our residents.
    Hope Haven, a foundation of recovery, provides life skills 
for chemically dependent adults and families within a 
supportive residential environment leading to independence. To 
enter our program a person must have completed a primary 
treatment program within the past year, be homeless and be 
willing to make the commitment to stay in the program for at 
least 6 months. Hope Haven's primary community, the Villages of 
Hope Haven, is located on the site of a former drug and 
prostitution infested motel. The same motel was once a premier 
showplace for travelers and conventions before falling to 
disrepair. Located on 13 acres it is a perfect setting for a 
community and it truly is a community. On this property we have 
job training programs, a conference center with a capacity of 
538 people, a stellar child development center that provides 
special services to many children with or at risk of 
developmental and physical disabilities. This is my partner in 
our child development center, Jenny Amendum.
    We have a wonderful nondenominational chapel and two 
chaplains, a greenhouse, commercial laundry, certified 
substance abuse counselors and the wonderful voices of hope 
recovery choir. Our newest addition is the conversion of our 
13-bed house near downtown from transitional housing to 
permanent supportive housing made possible with a HUD grant.
    In March some of our graduates will begin moving into 32 
apartments built on land at the back of our property as part of 
an LLC with Charlotte-Mecklenburg Housing Partnership. There 
are a number of resources that have been added to our North 
Tryon community since we opened our program. An elementary 
school across the street, and in our same block a new library, 
police substation and job training center. The drug house 
across the street was bulldozed down by police and the 
prostitutes no longer walk our street.
    Our program provides residents with an opportunity to use 
the tools of recovery taught in primary treatment programs 
within a structured, supportive environment. Vocational 
training programs are provided in food services preparation; 
sanitation and delivery; catering, onsite and offsite to groups 
of 6 to 500; commercial laundry skills, including sales of 
services, provision of services, some machine repair and 
billing. We have a maintenance program which specializes in 
teaching large building maintenance and a horticulture program 
that is complete with a working greenhouse.
    Weekly our residents attend four AA or NA meetings, have 
group counseling two nights and individual counseling. We have 
single adults, women with children, men with children, couples 
and intact families as residents. We also contract with our 
local drug court and the staff at First Programs to provide 
housing and training as an alternative to incarceration for 
those who have committed alcohol and other drug related crimes 
and have agreed to enter the drug court treatment programs. 
This program too has been hailed as a national model for 
working with offenders who have not been able to stay clean in 
their home environments.
    Pitfalls to avoid. The greatest concern my colleagues and I 
have had since the announcement of the faith-based initiative 
has been the level of expertise that will be allowed. Yes, it 
is hard to meet all the regulations required. Our policy and 
procedures book expanded from 37 pages to over 200 pages, but 
it is important for residents in rehabilitation programs to 
receive educated, competent care that often requires using 
tough love. We are dealing with people who have had to survive 
by any means possible. They also have multiple problems in 
addition to their substance abuse, including abuse, domestic 
violence, bad credit, criminal records, HIV/AIDS, loss of child 
custody, loss of possessions, poor job histories. If staff's do 
not have experience in assessing and working with the problems 
they will enable them to stay sick rather than empower them to 
become self sufficient.
    The second concern is for programs that approach residents 
from the perspective of religion versus spirituality without 
the resident being given any choice. Alcohol and other drug 
addictions are diseases that can be treated. Recovery is 
possible only through total abstention a day at a time. It is 
not a sin or moral issue, although certainly many sins and 
immoral as well as illegal acts occur during the influence of 
substances. We have residents of many faiths as well as those 
just beginning to find or rediscover their beliefs in their 
higher power. A large part of their recovery is based on 
finding that power in which they can believe and trust to 
forgive their past actions while still providing strength to 
remain substance free each day.
    My last concern is funding. The general mindset of funders 
is to fund new programs. However, there are programs that are 
very effective that can never be self-supporting and need 
sustained funding to survive. Creating programs to chase 
operating dollars is wasteful.
    The good news. HUD, Mecklenburg County and United Way are 
our major ongoing sources of income for sustained programming. 
I really cannot say enough goods things about the role HUD 
plays in our community. Without its funding our continuum of 
care would truly suffer. It would be possible to replicate our 
program almost anywhere. If a motel is available through 
government seizure, it is even more attainable. Again, the only 
obstacle is financing of the facility's renovations and funding 
to operate. We are already seeing other agencies in our area 
replicating our model and talk with agency representatives from 
across the United States about the steps to make it happen. 
This too would be a great way for churches to provide temporary 
apartments for those in need of housing, especially the working 
poor.
    Mr. Souder. Thank you. We will put your full statement in 
the record.
    Next is Ginny Amendum.
    [The prepared statement of Ms. Harrison follows:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Amendum. Thank you. I am delighted to be here and hear 
all of these interesting perspectives from my colleagues in the 
local community.
    Thompson Children's Home has provided continuous care for 
children for over 100 years. They began with a very strong 
connection to the Episcopal Church. Today they maintain a very 
wholesome affiliation with the Episcopal Church. Coming out of 
their history as an orphanage where children needed food, 
clothing and shelter, they have come to be a human-service 
agency that provides services along a continuum of care--strong 
medical, psychiatric, educational treatment services for 
fragile children and families.
    Their programs fall into three distinct areas today, early 
childhood services. Centers like the one Alice mentioned at 
Hope Haven. We have two of them in a very high-risk area in the 
north part, the north sector of Charlotte. We have our early 
childhood services focused on family education, child care, 
best practices following research-based studies.
    In our treatment services we provide care and healing for 
children who have been sexually abused, abandoned, neglected 
and hurt. They are North Carolina's throw-away children. We 
often hear that. Our community-based services take children 
that have undergone intensive treatment and move them forward 
to live again in community-based placements, foster care with 
an eye always on permanency through adoption.
    Thompson Children's Home, I think, has come to the point 
where they partner very effectively both with other faith-based 
initiatives, and we do have a strong philosophy around that 
faith-based perspective. Our philosophy is based on four 
words--healing, teaching, worship and play. All of those things 
are provided and offered to our clients, nothing is required.
    We also partner very effectively with certain government 
agencies. I think that as faith-based initiatives and agencies 
move forward in today's society and do serve this incredible 
function for social service, that we will more and more need to 
take a look at our standards of accountability, at how we 
license ourselves and regulate ourselves and maintain standards 
so that if we ask for government help and support that we will 
be able to speak with understanding and clarity about what our 
best practices are, about what we do to provide those for our 
clients and within our communities. And I think that when we 
look and struggle between what is the difference between a 
faith-based agency and something that maybe is government 
controlled or government mandated, it is about relationships. 
It is about the fact that the faith-based initiatives always 
keep their eye on the faces, always have the opportunity really 
more than government to remember the faces and the individuals. 
And when we all focus on community building and strengthening 
our communities, we know that the best resource is our human 
resource. Even though sometimes government is forced to do that 
in more of a wholesale capacity, faith-based initiatives allow 
us to keep sight of the individuals and to remember that 
victory pretty much is counted on an individual basis.
    Thank you.
    [The prepared statement of Ms. Amendum follows:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Souder. Thank you.
    Pat.
    Ms. Marcum. Thank you for the opportunity to----
    Mr. Souder. I should say you are with Love INC of 
Mecklenburg County.
    Ms. Marcum. Yes. Thank you for the opportunity to present 
testimony today.
    Love In the Name of Christ, or Love INC of Mecklenburg 
County has been operating in Charlotte since 1993. The mission 
of Love INC is as follows: In the Name of Christ, to link 
individuals who have unmet needs to church volunteers willing 
to meet those needs in such a way that both will be blessed.
    In 2003 about 149 churches and 15 different mainline 
denominations in the Charlotte-Mecklenburg area participated in 
the Love INC network by either providing volunteers to do 
services, providing funding, donating in-kind materials or 
making referrals. Almost 19,747 volunteer hours were donated 
during the past 12 months by hundreds of church volunteers 
providing more than 50 different types of services for close to 
5,050 elderly, disabled or poor individuals in the community.
    Here is how Love INC works in a nutshell: Love INC 
functions as a clearing house where last year close to 100 
social service agencies, police departments, hospitals, clinics 
and home health agencies referred individuals who had unmet 
needs that no social service agency existed to fill. In the 
Love INC office, appropriate Love INC church volunteers were 
then mobilized to go out and meet that need.
    About 70 percent of the services provided last year were 
for the elderly or the disabled. The rest were primarily for 
poor families. I think the statistic has arisen because these 
are the most vulnerable people in poor economic times, so we 
see that number increasing. Many of the services were for such 
things as yard work, painting, house cleaning, transportation 
to the doctor or pharmacy, assistance with grocery shopping or 
food delivery, tutoring, clothing donations, home repairs and 
much more.
    Love INC seeks to leverage scarce resources in our 
community by facilitating interdenominational cooperation and 
collaboration in the church community. Rather than having many 
different churches host the same types of ministries Love INC 
seeks to assist churches in setting up a needed ministry to the 
poor and then encourages other churches in the Love INC network 
to donate resources to that ministry rather than duplicating 
it.
    An example of this is the Love INC Baby Layette Ministry. 
Love INC assisted three churches in the Charlotte area in 
different parts of the city to host Baby Layette Ministries. 
Love INC provided training for the church's volunteers and once 
the initial Baby Layettes were made available, Love INC 
provided referrals of clients that had been referred to us by 
the Health Department or Department of Social Services to those 
churches. And then other churches and volunteers made 
donations, and still are doing that, for Baby Layette items to 
those three churches, who then distributed them.
    During the past 12 months Love INC has also facilitated the 
construction of more than 87 wheelchair ramps for the disabled 
in Charlotte-Mecklenburg. At a conservative estimated retail 
value of about $1,500 each--and that is conservative--these 87 
ramps would cost about $130,500. However, rather than paying 
professional contractors to do the work, Love INC has volunteer 
ramp construction experts who design the ramp according to 
county safety specifications and who will then train 
construction teams from participating churches to build the 
ramps. Utilizing this free labor resource and in-kind donations 
from the churches, as well as partnering to build some of the 
ramps with a government program, the Caregiver Support Program, 
Love INC has been able to leverage these scarce dollars at a 
six to one level. In other words, for every $1 donated for 
ramps to Love INC, $6 in ramps has resulted.
    Another way Love INC has been able to leverage resources is 
with our Budgeting Assistance Program for the working poor. In 
the pilot study just completed in October of this year, Love 
INC and all of the collaborating churches, volunteers and 
nonprofit agencies were able to provide over $15,000 worth of 
materials and services to the client families for an out-of-
pocket cost of $1,400, an almost 11 to 1 leverage.
    Other important Love INC programs are the Adopt an Elder 
Program where care teams from churches form a second family for 
a disabled or elderly individual or couple and the Samaritan 
Saturdays program, where groups from participating churches go 
out and do projects in the community to help the poor. By 
utilizing a greatly under-utilized community resource, church 
volunteers, Love INC provides about $4 in services and 
materials to clients for every $1 in cash donated to the 
agency.
    As the population in our country ages, more and more 
services are going to be needed to help individuals remain 
independent and in their own homes for as long as possible. 
Funds are no longer going to be as available for Medicaid 
probably as they have been in the past as payment for nursing 
homes. Love INC and other faith-based nonprofits stand ready to 
help provide some of those services and help fill in the gaps, 
and yet when it comes to funding to help provide those 
services, we find ourselves falling between the cracks because 
we have not had the resources or staff to apply for and 
administer these highly complicated Federal grants. We are very 
hopeful that the new interest in the services being provided by 
faith-based organizations will make some significant changes in 
that situation and we are grateful that the attention of 
government decisionmakers has been directed toward Love INC and 
other faith-based organizations like us.
    Thank you.
    [The prepared statement of Ms. Marcum follows:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Souder. Once again, thank you for your work, first and 
foremost, and then for testifying today about that as well.
    Let me just say for the record, and you tell me if it is 
otherwise. At Hope Haven and Thompson Children's Home, you are 
pretty open in your hiring practices and would hire a Buddist 
or a Hindu if they applied. Love INC, they would have to, I 
mean the original is In the Name of Christ, would they need to 
be a Christian to work at your organization.
    Ms. Marcum. Yes. We do have a statement of faith. We share 
that with any applicant. Because our mission statement says in 
the name of Christ, we hire only Christians.
    Mr. Souder. Is it Virgil Goker who----
    Ms. Marcum. Yes, Virgil Goker began the program up in 
Michigan about 30 years ago.
    Mr. Souder. One thing you might look at, and I will mention 
it to him directly. When we redid Americorps, we put a 
particular clause in to say that faith-based organizations were 
available and that we reoriented it toward trying to make sure 
that it can provide for administrative purposes. Because we 
tried to put a Love INC in Fort Wayne and eventually it fell 
apart because the hard part was trying to take OK, I can do 
this Tuesday night from 6:30 until 8. Administratively it is 
difficult. Just like STEP and other programs where you try to 
match volunteer services with the other. So that is what we are 
trying to direct, because often you can find the volunteers but 
managing the volunteers is the huge problem if you cannot raise 
the overhead dollars to manage the volunteers. But the reason I 
say that is because the person who heads the subcommittee and 
who drafted the bill and who put those changes in is Pete 
Hoekstra, who represents Holland, MI where this program was 
founded, and he is very familiar with it. So that was part of 
the origins. The organization is part of the origins of the 
change. So make sure you talk about that. There are many 
organizations that try to do that. We are trying to steer to 
help, that was one of our efforts. How can we help? We cannot 
pay every volunteer in America, but we can try to help organize 
those volunteers. That is one thing we are trying to do with 
these programs.
    Let me revisit a couple of the things from the first panel 
and then I am going to open it up to see if you want to have 
any general things with that. I would like to go a little bit 
into detail on a couple of things with Hope Haven, with Ms. 
Harrison. You said that your procedures book expanded from 37 
to 200 pages. Can you explain a little bit what that is and 
what things caused that?
    Ms. Harrison. That is our work as a result of the 
requirements from the Department of Health and Human Services 
for the State of North Carolina for us to be licensed under the 
licensure under which we are, which is Therapeutic Communities 
for Adults and New Children.
    Mr. Souder. We had this really intense debate in San 
Antonio over some of the people who were working with treatment 
over licensing and how many procedures you have to have. Let me 
ask you a real challenging question. One of the things I have 
toyed around with, I have been persuaded that A, it is not 
going to pass and B, it would cost too much cash, but I am 
still pretty bent on this. A friend of mine, Bob Woodson, 
raised years ago about a zip code test, that a certain 
percentage of the grant-giving people would be required to live 
in the zip code where they provide the services. Because one of 
the things that Gene Rivers in Boston and others charge is they 
can tell the people that got the government grants. They come 
in and work for a little while and go back to the suburbs, and 
then the people who are still in the neighborhood where most of 
the problems are occurring, particularly in juvenile 
delinquency, gang related things, but often even drug problems 
occur after 5 p.m. until 9 a.m. not from 9 to 5 during the day. 
One of the challenges is that many of the groups that live in 
the neighborhood and who are most active could not begin to do 
a 200-page document.
    Ms. Harrison. I am sorry. I did not understand you.
    Mr. Souder. Could not begin to do a 200-page document to 
meet all the procedures. Have you seen partnerships with some 
of the African American and Hispanic? Whenever you have an 
emerging minority community you often have street activists, 
but who may not in their churches or their neighborhoods have 
CPAs, have attorneys, have people with this. If they have the 
love and the ability to live in the neighborhood, to be there, 
have you seen partnerships with them? How would you suggest we 
address this?
    Ms. Harrison. Good question. I am very active in our 
neighborhood of Hope Haven and in the North Tryon Coalition. 
Although I do not live there, I spend most of my time there. 
When we increased the size of our policy and procedures manual 
to meet the new qualifications, we spent a lot of money putting 
into place the things that needed to be done to meet those 
requirements and on buying expertise of experts to help us with 
that policy and procedures manual. As a result, our board of 
directors has said that we can sell our policy and procedures 
manual to other agencies. So we do offer that to other 
agencies. We have agencies that call us all the time wanting to 
recreate what we have, and we will sell them our policy and 
procedures manual and we will also sell them or give them a 
disk so that they can update it as they need to update it, 
which gives them the headstart we did not have. That is one 
way. Frankly, I cannot say that our program is a bit better 
because of the 200 pages of rules than it was with the 37 pages 
of rules.
    So I think that we certainly can look at some of the 
policies and procedures, because a lot of the things that we 
are required to do to have our licensure, a small agency just 
cannot do. They do not have the manpower to be able to do the 
things that need to be done.
    Mr. Souder. I would be very interested to have either a 
faith-based staffer or a person who is working with the drug 
treatment area followup. Because what I would really appreciate 
is, if you could go through the 200 pages, we have a HHS 
detailee who might be able to work with us as well--detailee 
meaning he is assigned to our committee for a period of time--
to go through the 200 pages. You say which things you think, 
because you have weighed in on the side of look, this has to be 
professional. I am mixed on this, by the way. I believe it is 
both a head and a heart issue, and I believe if you commit your 
life to Jesus Christ you can in fact go the most important 
first step, which is a meaningful desire to change, and that 
alone in some people is enough. Others have a chemical 
dependency that is further along and that is not enough and 
they need a supplement. But I have met too many drug addicts 
who went cold turkey, when I was told by universities that they 
could not, to not believe that faith is not possible to do 
that. But you have weighed in on the side look, there should be 
certification and processes. So if you can help us kind of sort 
through the 200 pages and say OK, these things are absolutely 
in our opinion--I am not saying I am going to agree with that, 
but at least that is where we are right now anyway. That these 
are absolutely essential, these are medium essential, these 
could possibly be waived. Then the second part of that is, we 
will take them back to HHS and say why did you put this in 
because there may be things you have not thought of, we have 
not thought of, variations. The nightmare is, often it is two 
cases somewhere that lead to a regulation that everybody has to 
deal with. It is what my sociology prof used to call my Aunt 
Annie, the anecdotal, or in fact, it may be a real case. But so 
rare that the paperwork required and the burden required is far 
offset because you deprive other people because you are burning 
up money filling out the regulations, then you do not have the 
money to pay the staff. You do not have the money to rehab 
somebody. Instead of getting an 8-week program they are getting 
a 7-week program because you are having to spend 10 percent of 
your cost filling out the paperwork. There is a tradeoff and a 
real cost to the paperwork, too.
    At the same time, I want to grant this and put it into the 
record. One of the most interesting meetings that we had, this 
was when I was a staffer. I was fairly new to Washington. We 
were not in the majority in the Congress, but the Republicans, 
which I am, but Reagan had taken over the administration. They 
were, I think in their second term at that point. But a number 
of my friends were in the administration now trying to 
administer the grants, and all of a sudden after having spent 
their whole career railing against the paperwork they were 
realizing that if they did not put the paperwork in, and 
somebody stole some money, they were going to get sued and 
yelled at and then some politician was going to stand up and 
say graft and corruption. We are going to get rid of the waste. 
And this dilemma of how to get accountability, which is a 
buzzword, and flexibility, which is a buzzword, how to get 
reporting that we need to get rid of corruption and the ability 
to not over burden you at the grassroots level is a huge 
challenge. And any of the others of you who have worked with a 
Federal program or have any kind of suggestions, like we had 
the Medicaid earlier today across State lines. It is probably 
an insolvable problem unless North Carolina and South Carolina 
want to reunite. But there are things that we can tackle.
    Right now one of the missions and assignments of our 
subcommittee is to try to look at those regs. We have 
jurisdiction over HHS. They have detailed a person over to us 
to try to look at some of this, and so any help you can be on 
that in particular.
    Ms. Harrison. I would be glad to. I would also like to go 
on record to say that I am a firm believer in the programs of 
AA and NA and in peer groups for recovery of alcoholism and 
other drug addictions.
    The reason that I have seen the need for additional 
expertise is that the people that we have coming into our 
programs are so much sicker than they used to be 20 years ago 
when I got into this business. There are so many additional 
programs and other co-occurring diseases that you have to work 
with, and that is where the expertise comes in I think more 
than anywhere else.
    Mr. Souder. I am going to digress just a minute because I 
mentioned earlier that drug issues, drug policies, are the 
primary thing our committee does, and we are obviously working 
very much right now with drug treatment in addition to going to 
Colombia more times that I ever had hoped to go in my life. One 
of the witnesses from the first panel, I believe it was the 
Rescue Mission, said that 98 percent had poly drug problems, 
but the other one that jumped out was 92 percent, I believe 
sexual abuse. I know Charlie Curry who is a friend of mine and 
comes from my home area who now heads SAMSA is a big believer 
and advocate on co-occurring dependencies. I think most of us 
think of is like a third. The 92 percent just jumped off the 
page. Do you see physical and sexual abuse when they are 
younger or currently as a primary, dominant thing or is it one 
of a series of things?
    Ms. Harrison. I would say it is a dominant thing, both 
mental and physical abuse. It is just rampant with both our 
women and our men.
    Mr. Souder. The problem is that it is easier to get a 
defined definition of sexual and physical abuse than it is 
mental. When you say mental, are you talking about mental abuse 
or people who used to be institutionalized who are now on the 
street, which is another problem, a retardation question?
    Ms. Harrison. An example of what I am speaking of would be, 
each month we have a community forum and in that community 
forum we celebrate every success that our residents have, and 
we have residents that move from one level to the next level, 
which is not a big deal. You know, they have just completed 
some things and they move from one level to the next. I cannot 
tell you how many times we have had them get up in front of our 
group and literally cry and say my parents told me I would 
never amount to anything and this proves they are wrong. That 
is the type of mental abuse we see. We see where our residents 
shared a bedroom with six or seven brothers and sisters in one 
bed. Was there sexual abuse? Who knows. But there was just so 
much mental anguish. We had a resident whose mother set their 
house on fire with his father and him in the house. He was the 
youngest of four children. She took the other three children 
out, left him in and he was burned across his face and every 
time he looks in the mirror he has to think that his mother 
left him in that house to die.
    It is amazing to see some of the abuse that we see every 
day. And a lot of the abuse does not come out in that first few 
months. We see it often come out at about a period of a year. 
They will start having bad dreams and not being able to sleep 
and start crying and they do not know why. And as we start 
working with them further, we realize that there are a lot of 
things that were pushed back from the childhood that have come 
forward. So it has certainly helped to have a longer program 
than we had in the past to deal with those issues, but it has 
been more challenging for us.
    Mr. Souder. Ms. Amendum, I have a couple of questions for 
you as well. You mentioned about your different pillars, one of 
which was faith, but people were not required to go to 
different things. In kind of stating what I believe, what my 
position is, which is a little different than most of my 
colleagues and even a little different than the White House. I 
do not believe you can accept Federal funds and require a 
prayer. I believe there are things you can do. That if you 
separate the programs--in other words, you might be able to pay 
your lighting bill, but you are not going to be able to get the 
program funded. I differ with the administration on that, and I 
believe eventually there will be a court ruling. I am not sure 
I agree with that, or that is the most effective program. I am 
just saying I believe that is the way the court will rule. But 
in your program, say, for example, I accepted one of the faith-
based clauses that is in law, and I cannot remember which one, 
whether it is in juvenile delinquency or in welfare reform, 
that you can have a prayer that ends at least 5-minutes before 
the program starts. It has to be voluntary and you can do it 
afterwards. But your faith can be communicated in other ways 
rather than just being in the program. Could you explain some 
of how you would work faith into your program, even if it not 
mandated? In other words, do people actually tap into it? I 
mean, I know in some of the problems in drug and alcohol abuse 
this is very difficult because unless you can get some regimen 
they are not necessarily ordered enough; therefore, if the 
faith based is part of the program it is pretty tough to 
separate. Maybe you need to stay out of government funds if you 
are going to do that. The church I grew up in, a small church, 
started a children's home as well and reached out to kids. Some 
of them have some discipline and some of them do not. You are 
trying to order your life. Could you address this question of 
if it is voluntary and they do not go, how do you work this? 
How do you keep the faith as part of the program and not just 
be like a secular children's home?
    Ms. Amendum. Well, I think if you had the opportunity to 
get picked up today and transplanted on our treatment campus or 
the Villages of Hope Haven, you would see that it is part of 
the fiber of what happens there, of who we are. It is something 
that is very integrated. Nobody is required to attend church. 
We have a chapel on campus that is beautiful and there are 
weekly chapel services. They are very ecumenical. As I 
mentioned before, the agency began through the Episcopal 
Church. But any provision of any kind of religious structure, 
we struggle to make sure that it is very open-ended, very 
diverse, very ecumenical. We exist as a Christian agency for 
all people, for all children. If you looked at my staff for a 
few minutes you would recognize that very clearly.
    But there is a piece of spiritual development that--and 
maybe, you know, this is not the time for us to debate this 
obviously. But we are kind of missing the boat when we talk 
about our human resource if we do not struggle to develop whole 
people. Our philosophy tends more to be about that, first and 
foremost we treat children. They come to us with mental health 
dysfunctions and diagnoses, but we work to develop whole 
people. We do not simply isolate a dysfunction and treat the 
dysfunction and say OK, move on, you are fine now.
    The faith-based part of our program, you would find it in 
the development of heroes in the school. It is very involved 
with our character education, with our focus on Native American 
practice and the world around you. It is a spiritual 
involvement for all parts of life. Does that answer your 
question?
    Mr. Souder. Yes, but it raises another question. Do you 
believe that faith is something that is healthy for mental 
health or do you believe it is a transforming power that has to 
do with eternal life as well?
    Ms. Amendum. Say that again, please.
    Mr. Souder. In other words, part of the debate that nobody 
really likes to talk about because it is difficult and it 
implies judgments and so on. I am saying different people have 
different views, I have my view. I am trying to sort things out 
because the word faith is pretty loosely defined. It is kind of 
like the word family in America. If we are not real careful 
that will include a college dorm. When you say faith, are you 
defining faith as kind of a feeling of self esteem, of how you 
fit in, having a, to use a cliche, a purpose driven life or are 
you defining faith as a belief in a power bigger than yourself 
that has control over eternity?
    Ms. Amendum. Now will I go to jail if I state my own 
opinion here?
    Mr. Souder. No, and it does not necessarily represent your 
organization. I am trying to get----
    Ms. Amendum. It really does represent my organization. I 
believe that faith is a power about a spirit that is bigger, 
that guides and directs life and that is within us and around 
us. And I do not think that we would never begin to say that 
the Episcopalians have it over the Methodists, the Baptists or 
anybody else. It is not denominational. It is a sense of a 
spiritual component to life and to the healing of children and 
their families. Part of that is a purpose-driven life, and I 
think that the two are, that is a tough question, because I 
think the two are very interrelated.
    Mr. Souder. I have blanked. I had one other question that I 
wanted to ask you. I will come back to that.
    Ms. Marcum, it was interesting because your organization, 
and it is not necessarily true of all Love INC groups, but you 
clearly are skewed more toward seniors and the people with 
physical disabilities and other mental disabilities than you 
are poverty, which is good because much social service is that. 
We have not really focused on that as much in our hearings.
    Now, I would like to have it on the record because I know a 
little bit about how the organization structure is. Those who 
would say that an organization like yours that is matching up 
volunteer services of churches, particularly Evangelical 
churches. For example, it may be like you say, baby cribs, it 
could be fixing somebody's windows, helping somebody do their 
taxes, any variety of things, getting them to the doctor. Those 
are all types of things your organization would do, correct?
    Ms. Marcum. Yes.
    Mr. Souder. That to put a standard on and say they cannot 
pray or witness about Christ, we would not even be able to 
monitor it. In other words, if the government said you get no 
dollars for gas mileage, how would you even monitor something 
like that if you are dealing with volunteers who are not 
working in a site? In other words, you are not working on a 
site, you are working in homes all over the place. You would 
not even know.
    Ms. Marcum. No, we would not. I will tell you how we 
function. We never require a client to convert to Christianity 
or to pray or to confess anything in order to receive services. 
We tell our volunteers and encourage them that they are 
introducing some people, especially the unchurched to Christ 
just by what they do. When you serve someone there is something 
happening. You are serving Christ but you are also letting them 
meet Christ in you. And in a lot of the cases that is all that 
is necessary to really effect a change in a person's life and 
to give them hope. But at the end of the service we always 
recommend to them to say would you like me to pray with you? 
Would you like to have a pastor come and visit you? If they say 
no, that is the end of it. It is never pushed. We never hit 
anybody over the head with it.
    Mr. Souder. And you continue to provide services to them 
even afterward.
    Ms. Marcum. We continue to provide services and it is never 
mentioned again. It has happened in the past that after many 
services have been provided that person brings it up again 
themselves. One of the most interesting things that happened 
last year was an elderly African American gentleman that said 
yes, he would like someone to pray with him. So the two 
volunteers prayed with him and afterwards they looked up and he 
was crying. He said who are you people? Why are you doing this 
for me, somebody you do not even know? That is the question 
that we always hope that people will get to. They see the love 
that is being given them and they respond to that love. You do 
not have to beat people over the head with it. So as far as 
monitoring it, I think it would be impossible. I think probably 
what happens is, a lot of our volunteers are shy and they may 
not even offer to pray with people. We encourage them to offer 
to pray, but I am sure that probably more than half do not. 
They just go out and they do the service.
    Mr. Souder. If you had a complaint about somebody being 
overly aggressive, would you talk to that person?
    Ms. Marcum. Oh, absolutely, yeah. That is one of our 
policies and we make sure the volunteers understand that, that 
they are never to beat someone over the head with their faith, 
because that is not going to change a life anyway. That is 
going to have the opposite result of what you really hoped for.
    Mr. Souder. Because Christ did not put conditions on 
providing human needs and meeting human needs.
    Let me ask another variation of this. Do you believe if you 
told these volunteers they could not pray or they could never 
witness, or they could not tell how Jesus impacted their life, 
that they would continue to volunteer? In other words, I am not 
saying they would not to some degree, but is not part of the 
reason they are going out is because they believe it is a 
manifestation of that and it would just pour out naturally?
    Ms. Marcum. I think we would lose a lot of those volunteers 
because----
    Mr. Souder. In other words, they are not going in because 
they are trying to----
    Ms. Marcum [continuing]. Being told they cannot share their 
faith is----
    Mr. Souder. Is different than saying you are required to 
share it.
    Ms. Marcum. That is right.
    Mr. Souder. I grew up in a faith that is very separatist. 
Basically I would be too shy probably to do it for awhile, but 
if somebody told me I could not, I would probably immediately 
start doing it.
    Ms. Marcum. Yeah.
    Mr. Souder. And what I am wondering is, if your motivation 
is that you are trying, if that indeed is your motivation, to 
reflect Christ, to be told that you cannot do that is 
problematic, not that you even necessarily would.
    Ms. Marcum. Absolutely. I probably would never tell my 
volunteers not to do that. Whatever was putting that 
restriction on, we would pull away from.
    Mr. Souder. What do you see as the biggest challenges in 
your organization? You mentioned organizing.
    Ms. Marcum. As far as volunteers go?
    Mr. Souder. In general. Is it financial, is it managerial, 
keeping volunteers?
    Ms. Marcum. It is probably financial right now. We really 
depend on God to make sure that we have the funding that we 
need. We are very blessed that the majority of our funding 
comes from individuals and churches. We are the 100th United 
Way Agency in Mecklenburg County. We are very happy about that. 
We get some foundation funding and some corporate funding. But 
trying to keep the balance right with putting the effective 
services out there and being able to show that we are not 
paying $5,000 for a hammer or a commode lid is really important 
to us. I think that effectiveness is probably the most 
important thing that faith-based organizations need to really 
be concentrating on right now, because if you are a faith-based 
organization, not necessarily Christian, but I think especially 
Christian, we should be not only as good as secular nonprofits, 
we should be better than secular nonprofits in our 
effectiveness. So every program that we have has outcomes 
projected, and we measure those outcomes and we track them on a 
regular basis. So effectiveness and really making an effective 
change is very important to us. I think that is something that 
all nonprofits, especially faith-based nonprofits, should be 
really paying attention to.
    Mr. Souder. I want to followup with Ms. Amendum again on 
the Children's Home. I thought of the questions I had. One was, 
are most of your kids court ordered or voluntarily placed?
    Ms. Amendum. All of our children are court ordered or 
referred through mental health, a mental health entity.
    Mr. Souder. The more difficult question, and then if either 
of the others would like to answer this, too. I have wrestled 
with this for a long time in different ways as we have worked 
through this issue over the years. Keith Phillips, who founded 
World Impact, I asked him and a number of his Missions to Urban 
Areas whether they were as successful as he hoped, often which 
were taking kids from suburban and rural backgrounds and going 
into urban areas. And he said, no, they have not really 
necessarily reached everything that we wanted to reach, but it 
has been an incredible experience for the people who are going 
in and volunteering. Christ's call to us is that we are 
supposed to volunteer and we are supposed to care for the poor. 
It is not in our hands as to whether people responded and how 
they worked. I thought that was a good answer.
    One time I wound up spending a good chunk of an afternoon 
with a man who had a real mess of a life. He was at a homeless 
shelter. He had been turning his life around. And finally after 
a couple of hours he finally starts to open up after the kind 
of the first tier you tell government people and then the 
second tier you tell somebody who is casual and then all of a 
sudden you break down and start sharing things. It is kind of 
like whoa. One of the things he said was he knew he was going 
to be a failure when on a Thanksgiving, it was either the day 
before Thanksgiving or Thanksgiving, he was playing football in 
his front yard. He knew his family did not have much money and 
one of the charitable organizations brought Thanksgiving dinner 
over. The other kids said you are so poor and your family is so 
worthless, and your mom is so worthless that you cannot even 
get your own Thanksgiving dinner. You are dependent on other 
people to do it for you.
    One of the huge challenges we have, we are compelled to go 
and help those who are not, yet at the same time that very 
thing can undermine their mental image and their security in 
theirselves. Do you have things in your program to help, any of 
the other programs too, that help like what immediately becomes 
apparent there is, do not directly deliver it. Have them get it 
somewhere else. That would be the simplest. Other things would 
be a way to earn part of that, even if it is minimal earning. A 
way to have some kind of sweat equity in the mix of it so it 
does not look like you are, forget the argument about breeding 
dependency. Many of these people are dependent, they need that. 
It is not a question of breeding dependency here, that is not 
what I am going after. What I am going after is, how do you get 
a sense of this is not just, particularly when you have bottom 
line, white organizations providing this in minority groups?
    Ms. Amendum. I would like to answer your question in 
reference to early childhood. We receive children through a 
variety of means, some through mental health, some through the 
courts, child protective services and many, many, because of 
their neighborhood location, word of mouth and just private 
referrals, and families come to us.
    Now let us talk about that Thanksgiving story. I think we 
learned early on when we began working in the arena of early 
childhood in a very high-risk area of the city. No. 1, the 
agency is not nearly as white as it used to be, which is a good 
thing, because we have worked really hard to not only develop 
diversity but to celebrate diversity.
    Second, I think that we struggled with that very question 
and recognized that we could only do so much. That in order to 
break the cycle that we are always talking about that 
perpetuates itself in the urban settings very often, that 
somebody has to change an attitude, not just the level of 
support. And we have developed a program and it has become a 
model here in North Carolina across the State, our early 
childhood program largely in partnership with the Duke 
Endowment. We represent only a part of early childhood 
development, but the first and foremost advocate and leader of 
that process in the family is the adult, the mother, the 
father, the parents, the grandmother, whoever is responsible 
for that child. And instead of developing just an educational 
program, we are going to teach you how to be a better parent 
process for adults and a child care program during the day, we 
have developed a very strong home-school partnership which 
moves families toward becoming, by the time their children go 
to public school; they become their children's advocate. They 
know the lingo, they know what to ask for, they know what their 
child needs and they celebrate the strength of those children. 
What is the one thing that pretty much we all agree on? You 
have a cute kid, I have a cute kid. We all like to have our 
children acknowledged as being better than everybody else's. 
There is a great deal of potential and promise in every single 
child in that setting that we all visualize in our mind in 
those at-risk neighborhoods. Those children are not less than 
the children in suburban America. They are just maybe needing 
another leg up. But you start from the concept of that promise 
and of engaging a community in recognizing that. We do not do 
all of the work for our families. We do not do all of the work 
for our children. And I can say--and I think maybe Alice will 
back me up here--that our families, when they leave those early 
childhood development programs, we have developed the children 
and the families with a different sense about who they are and 
what they have to present to the world. We also have outcomes, 
we have assessments, we have measurements and we set out to 
develop children who are ready to be school successful. But 
what happens in the mix is that for the most part those 
children are primed to be high flyers. Now the public school 
has some work to do, too, and I can say that as an old public 
school lady. I think it is about how you provide your services. 
If you go in and say well, I had to cook your turkey because 
you are not capable of cooking your turkey, you are so poor and 
worthless and whatever. That is a whole different attitude than 
saying let us get to know each other. It is about relationship 
on the base, grassroots, faith base, whatever you want to call 
it, level. But it is about you and me doing something good for 
your child and you become the leader in that project.
    Mr. Souder. I would be really interested if any of you can 
provide for the record some of the things you do for that 
accountability for the family direct involvement and some of 
the outcomes. This has been a big issue in Head Start, because 
in many Head Start programs around the country, you have this 
incredible parental involvement, then they hit first grade and 
it is gone. Now some Head Start programs wind up becoming 
overly we are professional and we know what we are doing and 
the parents are at the margins. We have tried to derive that 
program increasingly, but it has been one of the better model 
programs for the involvement. The question is, how can we 
spread that up the system? Now partly the challenges of 
teaching somebody in preschool are a little bit different than 
when you get in math and things further up and the parents get 
more intimidated. But there is some kind of structural problem 
here, too, and in trying to address that.
    One last question and then I will let you give your final 
opinions. It is another question I had. You said something that 
triggered this again. How much do you think the difference in 
your programs is due to faith and the nature of how you 
approach it vis-a-vis government and how much do you think it 
is that your case load is less?
    Ms. Amendum. My case load is less did you say? Was that the 
question?
    Mr. Souder. In other words, one argument we hear out of the 
government is that they have so many and that the private 
groups sometimes cherry pick, which is I believe not true, but 
that is one of the allegations and/or your case work is a lot 
less; therefore, it is not the style of how you approach it, it 
is that you have more dollars per person that you can leverage, 
in other words, $1 to $11. The way the government would say 
that is, well we might have the three but we do not have the 
ability to get the match; therefore, you have more resources 
per thing to match. It may be that, you know, everybody has 
this pressure. But probation officers, you have 280 kids, there 
is no way you are going to get personal time to each of those 
kids. So some of that is definitely true in some areas. But to 
what degree do you think it is true that when we say faith-
based organizations are more effective, we are really talking 
about dollars and case work size as opposed to the nature of 
the programs?
    Ms. Amendum. I would hesitate without thinking about it to 
put a percentage that you are going to quote me on to it, but I 
think it is probably about 50-50. My first comment, I said to 
you that the government is forced to look at it differently 
than we are. We are able to keep track of the faces. And 
healing, true healing, we have to look at the way out vision. 
What do we want the American people to know to do and to be 
like? It is always going to have to include that personal 
identity and looking at the faces. And so in my perfect world, 
I struggle to find a partnership that blends government 
funding, maybe a reduction of some bureaucratic requirements 
with the ability to still work in small institutions, small 
groups and remember the faces and build that potential. It does 
not happen when you are 1 of 280 with one probation officer, 
your chances of making it and recognizing your own potential in 
becoming a worthwhile productive citizen in your community, 
your chances go down pretty dramatically. But I also think on 
the other hand that faith-based initiatives or small 
nonprofits, have had the freedom, have had a different 
philosophical passion or perspective to try new things, to 
build new things, to have trial and error processes that have 
led toward the development of stronger, more effective 
programming.
    Ms. Marcum. Congressman Souder, may I just speak to that?
    Mr. Souder. Yeah, I could keep asking questions. I will be 
happy to let you all finish here with whatever you have.
    Ms. Marcum. I would like to just say one thing about that. 
I agree with everything that you said. I think the government 
has a different perspective on it. But perhaps that perspective 
is different because faith-based organizations are very mission 
oriented. We set up that mission statement and everything that 
we do is filtered through that. Our mission is to present 
Christ to people. Basically to introduce them to Christ or let 
them see Christ in us when they have received services, where 
the person who has 280 clients that they have to take care of 
may not have that type of mission in mind. Their mission is to 
get these people taken care of and get on to the next one. So 
if there was some way to compromise by increasing the ability 
of the nonprofits to serve, I think that is where the funding 
comes in. We have that mission so strongly in mind that we will 
limit the number of people that we serve based on whether we 
can fulfill that mission with them or not. Does that make 
sense? We are not going to go out there and just try to reach 
everybody because we cannot do for everybody what we are 
determined that we are going to do. We would love to be able to 
do that. We would love to have more resources to be able to 
reach out to more people.
    Mr. Souder. Does anybody have anything else they want to 
add for the record?
    Ms. Harrison. One thing that I have seen in that arena is 
that there are instances where the government always takes on 
too much. And one of the things in my area of being alcohol and 
other drugs and mental health and disabilities is that from a 
State level there have been a lot of changes coming down to our 
local level saying that the local level should not be providing 
services that they are also managing. That they can manage 
services or they can provide them but they should not be doing 
both. So they are beginning to farm out more of the services 
that they have provided at a much higher cost to the citizens 
because they are able to pay more to their workers than our 
nonprofits do. As a result, we as nonprofits will be getting a 
lot more opportunity to respond to RFPs to provide these 
services. I think that is a good thing. I think that in the 
long run it will save money. But I do believe that sometimes it 
is just too overwhelming for the government employees to be 
able to handle all they have to handle. No one should have 280 
people that they are working with at one time if they want to 
accomplish anything with those people.
    Ms. Amendum. That is the way out vision. If you are looking 
to build community through healed and stronger individuals, we 
have to take a look at the numbers and how we go about doing 
that and unfortunately on the front end, if you are really 
going to intensively heal and do it within a relationship basis 
that is manageable, it is not going to be a very cost effective 
operation all the time. I think we have some serious questions 
to ask ourselves about how much we are willing to commit to 
building healthy people in this country.
    Ms. Marcum. And all of this comes back to outcome 
measurements really, because if you are counting activities, 
how many people did I see today and how many people did I do 
this for, then it is a totally different thing than saying what 
is the outcome we want for that person. Just like you are 
saying, you are not going to get those effective outcomes by 
just pushing people through by the numbers. I think that is 
probably the major difference between government entities and 
faith-based nonprofits, because if you are an effective 
nonprofit you are looking at those outcomes and you want to see 
those changed lives and you are not really counting yourself as 
being effective if nothing is changing.
    Ms. Harrison. We look at outcomes rather than outputs.
    Ms. Amendum. That is right.
    Ms. Marcum. We do, too, exactly.
    Ms. Harrison. That is the difference, I think. One other 
thing, too, that I would like to address. When Jenny was 
talking about the child development center and working with the 
neighborhoods and the perception of others. When we moved into 
the area where we moved to begin with on North Tryon Street, 
the neighborhoods were very leery of bringing a bunch of drug 
addicts into their neighborhood as is usually the case. When we 
began working as a partnership in building the child 
development center, we really wondered if people would bring 
their children to a child development center that is part of a 
drug and alcohol rehab center that is a gated community. What 
we have found was that by letting the community become familiar 
with us, come on to our property, hold events there, that they 
have learned what we are all about, and more than 50 percent of 
the children in our child development center are from our 
neighborhoods and not from our programs. I just think that is 
phenomenal. I would never have imagined that ratio would ever 
occur.
    Mr. Souder. Well thanks for adding to the discussion 
process that we are having.
    Earlier in my career I was the Republican staff director on 
the Children and Family Committee in the House and worked for 
Dan Coates. Years ago we came to the conclusion that we were 
only going to be able to do so much through the Federal 
Government and we needed to continue to look at how to use 
faith based. There is a simple fact of the matter. Nobody likes 
to hear this, but when you talk about whether there is the 
financial willingness to commit to holistic treatment, the 
answer is clearly no, there is not. That it does not matter 
whether you have a Republican Governor or a Democratic Governor 
or Republican State legislature or Democratic State 
legislature, a Republican President or a Democratic President, 
you know what social welfare spending has stayed flat, not even 
inflation adjusted. As much as they want to lay on we evil 
people got elected in 1994 for cutting spending, in fact, some 
conservatives are pointing out, we have increased spending more 
than they did under the Democrats in some of these areas. In 
Indiana, we have had Democratic Governors for 16 years and the 
probation load is still increasing, the welfare load has not 
changed because the general public does not want to pay the 
taxes. Now the problem we have in defending people in the 
public sector who have to count, if they start doing holistic 
on a few, like let us say you are doing a probation thing, you 
say OK, we are going to deal with just 50 of these kids and 
leave the other 230 to run free in the community. The community 
would go crazy. So basically you are reduced to barely 
monitoring them because you basically do not want them to 
terrorize the neighborhood. If you are doing a food 
distribution program, you cannot say let us try to address this 
family and we are going to let the other 200 starve. It does 
not work that way. So our accountable, our outcome measurements 
are by definition different. We need, by the way, more 
Christians to get involved in that because it does not mean you 
cannot put a friendly face in a concern and I feel your pain 
with it just because you are in the government.
    We have to do this in our office all the time. We handle 
immigration case work and it builds up and veterans case work 
and you can have a snotty person or you can have a nice person. 
We need to work and realize that you can have a mission even in 
a more bureaucratic system. But we came to a conclusion a 
number of years ago, and one of the Coates staff people is now 
in a good position to do this in writing these speeches for the 
President, Mike Gerson, that you know what, unless we can 
leverage private sector money we are in trouble in social 
services. We need all the different types of groups. We need 
the groups that are overtly spiritual, whether they are 
orthodox Jewish or Muslim or Christian. We need the groups that 
have that interwoven. We need them where it is a part around 
it. We need them where it is even less direct. We need all of 
those different groups because we do not have enough money to 
address the problem. And if we start picking and choosing and 
saying this group is not eligible, this group is eligible, 
there are going to be certain guidelines with it, but we have 
to figure out through the private sector and where the 
government can help provide some basic support systems where it 
does not violate the Constitution of how to do this, because we 
have already seen the answer. For 20 years now we have seen 
flat or declining, and yet the same people in the society will 
say all these problems are increasing. You hear the stories 
about the use--the big thing would be bubble gum and meeting in 
the schools and now you have to worry about teachers getting 
raped in a stairwell in many schools. It is a different 
challenge, and with that, we have not made adjustments. The 
bottom line is, I do not think we are, because the general 
public is skeptical about the ability of government to do it. 
We have tried to decentralize it, but when we decentralized it 
the States and counties were not any more interested in picking 
it up than the Federal Government was.
    So we have to have organizations like yours where people 
volunteer, and by definition, if they are smaller they have 
more empowerment in them. They are more neighborhood based, 
they can hold it accountable, they can see how their dollars 
are being used with their eyes. And when it comes to us, they 
all think there is huge waste and fraud somewhere or it is 
impersonal. Hopefully we can continue to advance this. You all 
gave us very thoughtful comments today, and if you can help us 
with some of the specifics, while it is fun to talk about the 
bigger general questions it comes down to piece by piece, 
changing this whole specific. So maybe in a couple of years we 
can get your 200 pages down to 150 and that is progress. All 
you can do is move the ball just like you do. You cannot solve 
every case, you look at them.
    We thank you for your time today. We thank you most 
importantly, and if you can communicate it to the people who 
work in your organizations, because without people like that on 
the streets who knows where our country would be, where our 
States would be and our communities. So we thank you very much. 
Thank you all who have been here and the students who were here 
for the whole thing.
    I will leave the record open for additional comments if you 
want to submit those and if we have some additional questions. 
With that, the subcommittee stands adjourned.
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
